<html>
<title> - ADAPTIVE HOUSING GRANTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        ADAPTIVE HOUSING GRANTS 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-52

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-419 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  Subcommittee on Economic Opportunity

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

























                            C O N T E N T S

                               __________

                           November 19, 2009

                                                                   Page
Adaptive Housing Grants..........................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    24
Hon. John Boozman, Ranking Republican Member, prepared statement 
  of.............................................................    24
Hon. Gus M. Bilirakis............................................     2

                               WITNESSES

U.S. Department of Veterans Affairs, Mark Bologna, Director of 
  Loan Guaranty Service, Veterans Benefits Administration........    15
    Prepared statement of Mr. Bologna............................    35

                                 ______

Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................     5
    Prepared statement of Dr. Zampieri...........................    29
Disabled American Veterans, John L. Wilson, Associate National 
  Legislative Director...........................................     3
    Prepared statement of Mr. Wilson.............................    25
Homes For Our Troops, John S. Gonsalves, President and Founder...     7
    Prepared statement of Mr. Gonsalves..........................    31
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................     4
    Prepared statement of Mr. Daley..............................    27

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Defense, Noel C. Koch, Deputy Under Secretary 
  of Defense, Wounded Warrior Care and Transition Policy, 
  statement......................................................    37
Disabled Veterans Committee on Housing, John S. Lewandowski, 
  President/Chief Executive Officer, statement...................    38

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Carl Blake, National Legislative Director, Paralyzed 
      Veterans of America, letter dated November 20, 2009, and 
      response letter from Richard C. Daley, Associate 
      Legislation Director, letter dated January 8, 2010.........    41
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Tom Miller, Executive Director, Blinded Veterans 
      Association, letter dated November 20, 2009, and response 
      letter from Thomas Zampieri, Ph.D., Director, Government 
      Relations, dated December 1, 2009..........................    44
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Mark Bologna, Director of Loan Guaranty Service, Veterans 
      Benefits Administration, U.S. Department of Veterans 
      Affairs, letter dated November 20, 2009, and VA responses..    50


                        ADAPTIVE HOUSING GRANTS

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:18 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Adler, Boozman, 
Bilirakis.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, hearing on Adaptive Housing Grants will come to 
order.
    Before I begin with my opening statement, I would like to 
call attention to the fact that Mr. Noel Koch, Deputy Under 
Secretary of Defense, Wounded Warrior Care and Transition 
Policy, U.S. Department of Defense has asked to submit a 
written statement for the hearing record.
    If there is no objection, I ask for unanimous consent that 
his statement be entered for the record. Hearing no objection, 
so entered.
    [The prepared statement of Mr. Koch appears on p. 37.]
    Ms. Herseth Sandlin. According to the Defense Manpower Data 
Center at the Department of Defense, approximately 35,000 
servicemembers have been wounded in Iraq and Afghanistan. Today 
we will receive timely testimony that foreshadows the increased 
need for adaptive housing grants.
    In caring for our injured men and women in uniform, we must 
continue to address their needs so that they may live as 
independently as possible after their honorable military 
service.
    Some of our panelists might recall a hearing that we held 
on specially adaptive housing early in the 110th Congress in 
which we received testimony on ways to improve existing VA 
adaptive housing programs.
    Following this hearing, the Subcommittee worked with 
stakeholders to provide specially adaptive housing assistance 
to disabled servicemembers residing temporarily in housing 
owned by a family member, to require the U.S. Department of 
Veterans Affairs (VA) to update its pamphlet on the 
construction and design of specially adapted housing, and to 
increase the amount of assistance available to disabled 
veterans for specially adaptive housing grants.
    While these legislative accomplishments are significant, 
today's hearing will provide the Subcommittee Members the 
opportunity to determine if the existing adaptive housing 
grants provide the needed benefits for our most injured 
servicemembers and veterans.
    I look forward to working with the Ranking Member, other 
Members of our Subcommittee, and veterans' advocates to ensure 
that our most critically wounded servicemembers are provided 
adequate benefits to modify their homes, to achieve 
independence and comfort when they return home.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 24.]
    I would now like to recognize Mr. Bilirakis for any opening 
remarks that he may have.

           OPENING STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    No citizen of this country deserves our help more than our 
wounded warriors. I am very gratified to attend this hearing.
    Madam Chair, thank you very much for holding this hearing.
    Despite some of the things that our government does wrong, 
on this issue of whether we will care for our wounded warriors, 
our heroes, this hearing is a signal that we are getting it 
right. We are getting our priorities straight in my opinion.
    I have been to the Haley Hospital just outside of my 
district. Haley has a polytrauma unit where we have some of the 
most severely wounded warriors from the wars of Iraq and 
Afghanistan. These wounded warriors have an amazing dedication 
and their tenacity is truly something to behold.
    The question is whether this House will have the same 
dedication to them. We can start by ensuring a living 
environment that affords our veterans a level of independent 
living. We can provide some relief by enabling these veterans 
to enjoy at least some independence inside of their homes. And 
I strongly support this program.
    Again, I thank you for holding this hearing, Madam Chair. 
Thank you.
    Ms. Herseth Sandlin. Thank you.
    Mr. Bilirakis. I yield back the balance.
    Ms. Herseth Sandlin. Thank you very much, Mr. Bilirakis.
    I would now like to welcome our panelists testifying before 
the Subcommittee today. Joining us on our first panel is Mr. 
John Wilson, Assistant National Legislative Director for the 
Disabled American Veterans (DAV); Mr. Richard Daley, Associate 
Legislation Director for the Paralyzed Veterans of America 
(PVA); Dr. Thomas Zampieri, Director of Government Relations 
for the Blinded Veterans Association (BVA); and Mr. John 
Gonsalves, President and Founder for Homes For Our Troops.
    Gentlemen, thank you for joining us today. In the interest 
of time and courtesy to all of the panelists here, we ask that 
you limit your testimony to 5 minutes on your comments and your 
recommendations. As you know, your entire written statement has 
been entered into the Committee record.
    So, Mr. Wilson, we will begin with you. You are recognized 
for 5 minutes.

 STATEMENTS OF JOHN L. WILSON, ASSOCIATE NATIONAL LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS; RICHARD DALEY, ASSOCIATE 
  LEGISLATION DIRECTOR, PARALYZED VETERANS OF AMERICA; THOMAS 
  ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT RELATIONS, BLINDED 
  VETERANS ASSOCIATION; AND JOHN S. GONSALVES, PRESIDENT AND 
                 FOUNDER, HOMES FOR OUR TROOPS

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Thank you, ma'am.
    Madam Chairwoman and Members of the Subcommittee, I am glad 
to be here this afternoon on behalf of the Disabled American 
Veterans to present our views on the VA adaptive housing 
programs, the Special Housing Adaptation Grant Program and the 
Temporary Residence Assistance Grant Program.
    With the enactment of Public Law 109-233, the Veterans 
Housing Opportunity and Benefits Improvement Act of 2006, 
Congress enhanced the benefits available to veterans and the 
now approximate 34,000 servicemembers wounded since May 2009 as 
part of Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF).
    As a result, the Temporary Residence Assistance or TRA 
Grant was established which allows eligible individuals living 
in a temporary status to adapt that temporary housing provided 
it is owned by a family member. The Specially Adapted Housing 
or SAH Grant Program has a ceiling of $60,000 for modifications 
to a home.
    As too many veterans have come to know, injuries that 
result in loss of use or loss of extremities as well as loss of 
sight, severe burns, and other conditions require programs such 
as these to provide the necessary assistance to this deserving 
population. The question comes down to the effectiveness of 
these programs.
    TRA eligibles can use up to $14,000 from SAH and $2,000 
from Special Housing Adaptation or SHA grants. To do so would, 
however, reduce the amount available under the other Adaptive 
Housing Grant programs.
    Some would argue that utilization is a good measure of 
program effectiveness. I agree. The U.S. Government 
Accountability Office (GAO) study of June 15th, 2009, titled 
``Veterans Affairs Implementation of Temporary Residence 
Adaptation Grants,'' found only nine TRA grants had been 
processed by the VA with approval for adaptations ranging from 
approximately $3,500 to $14,000.
    Of the three reasons cited by GAO as to why the grants have 
been so limited in their utilization, the fact that using TRA 
reduces availability of funds from other adaptive housing 
programs seems to be the most significant to my mind.
    What is to become of this important program, which is 
scheduled to expire December 31st of 2011? It seems logical 
that severely injured veterans and servicemembers who often 
need daily care during an extended convalescence would benefit 
from a program that allowed them to adapt their temporary 
surroundings using the TRA Grant Program. DAV calls on Congress 
not to allow this program to come to an end but rather modify 
TRA.
    First, Congress should delink TRA from SHA and SAH grants 
so that using one program does not reduce the funds available 
on the others.
    Second, increase the TRA allowance from $14,000 to $28,000 
for those veterans eligible under SAH grants.
    Third, for those veterans eligible under SHA grants, 
Congress should increase the allowance from $2,000 to $5,000.
    Modifications such as these will substantially improve TRA 
and should result in a greater utilization of this important 
program.
    That concludes my statement, Madam Chairwoman. It is a 
pleasure to appear before this Subcommittee and I am glad to 
answer any questions.
    [The prepared statement of Mr. Wilson appears on p. 25.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Wilson.
    Mr. Daley, welcome back. You are recognized for 5 minutes.

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Chairwoman Herseth Sandlin, Ranking Member 
Bilirakis, and other Members of the Subcommittee, Paralyzed 
Veterans of America appreciates the opportunity to express our 
ideas on the issue of specially adaptive housing.
    Since PVA's beginning, the organization has advocated for 
the idea that the disabled veteran should have the same use of 
their home as the nondisabled veteran.
    In 1947, PVA lobbied Congress for new legislation that 
would provide Federal grants to make homes accessible. They 
argued that the paralyzed veterans were forced to remain in the 
hospital because their former homes would not accommodate a 
wheelchair.
    In 1948, the U.S. Senate passed Public Law 702. Under this 
law, the Veterans Administration, now the VA, approved $47 
million for the construction of wheelchair accessible homes. 
Through the years, the grant has been adjusted in an attempt to 
keep pace with the rising cost of home construction.
    Since it is difficult to find an existing home that can be 
made totally accessible, some veterans choose to design a new 
house and incorporate accessibilities into their plans, but 
financial considerations or possibly the need to be near a 
family member may preclude the design of a new home and 
building a new home. In those situations, the most monumental 
task of making an existing home accessible must be considered.
    The Specially Adapted Housing Grant which has a value of 
$63,780 this year will help cover some of the cost of making it 
accessible.
    The 109th Congress made significant adjustments to the 
grant when they passed Public Law 109-461. This legislation was 
intended to resolve an important problem with the grant for 
disabled veterans. The grant can now be used for a home that is 
not owned by the veteran, but owned by a family member. This 
allows the veteran to live with family members while 
participating in the VA rehabilitation or other necessary 
programs.
    In the future, the veteran's condition may allow them to 
move to their own home with the second use the grant. Many 
paralyzed veterans that I have met have moved in with a family 
member while establishing their new life from the perspective 
of a wheelchair.
    Unfortunately, when they use the Temporary Residence 
Adaptation Grant to accommodate their new condition, this 
reduces some of the options they may have when moving to their 
new home. This program should be a separate grant program and 
should not be subtracted from the Special Adapted Housing 
Grant.
    I would like to bring to your attention another issue 
relating to housing. That is the maximum amount of mortgage 
life insurance known as the Veterans Mortgage Life Insurance, 
VMLI, available for veterans that qualify to use the Specially 
Adapted Housing Grant.
    Regardless of how much is still owed on the home when the 
veteran dies, the maximum amount paid is $90,000 on this policy 
and the veteran has paid for this policy for many months, many 
years.
    The 100 percent disabled veteran, because of their physical 
condition, cannot purchase life insurance on the open market 
such as I can or other people can. The VA provides this option 
for the veteran to purchase the Veterans Mortgage Life 
Insurance, the VMLI.
    I spoke with a PVA member just today who lives in the 
Atlanta, Georgia, area and he is a bit concerned about this. He 
was saying that he is a 100-percent service-connected, 64-years 
old, and not in the best of health. His wife, because she has 
raised two kids and moved around constantly with his 25-year 
military career, has never established a career of her own.
    So to date, he has $150,000 left on his mortgage which the 
insurance which he has paid for for years will cover $90,000. 
If the husband dies in the next 4, 8 years before the amount 
owed goes below $90,000, she will have to be forced to sell the 
house, if she can sell it, or it will be foreclosed on her 
because it is harder to sell an accessible house sometimes.
    So the Senate Committee on Veterans' Affairs has addressed 
this issue in legislation introduced by Chairman Akaka this 
year,
S. 728. This would raise the amount of the Veterans Mortgage 
Life Insurance to $150,000 and $200,000 in 2012. This was 
passed by the Senate and returned to the House along with H.R. 
1037 for further action. PVA would appreciate this 
Subcommittee's support for this legislation to ensure its 
passage soon.
    That concludes my testimony. I will be available for 
questions.
    [The prepared statement of Mr. Daley appears on p. 27.]
    Ms. Herseth Sandlin. Thank you, Mr. Daley.
    Dr. Zampieri, you are recognized for 5 minutes.

              STATEMENT OF THOMAS ZAMPIERI, PH.D.

    Mr. Zampieri. On behalf of the Blinded Veterans 
Association, thank you very much for inviting us to testify 
today on this issue. And I also want to thank this Subcommittee 
for a lot of the legislation that you have done in the last few 
years in regards to trying to improve the Adaptive Housing 
Program.
    As you mentioned, the numbers the Defense Department has 
published in regards to the total numbers of wounded from OIF 
is well over 35,850 now and OEF is 4,982 and climbing.
    And the Washington Post recently had an article and the 
Army Times that in Afghanistan, there have been over 1,000 
wounded in just a 3-month period.
    Of interest to me, it may miss some folks, I found in there 
buried in the article, there were over 17 new spinal cord 
injured in a 3-month period in Afghanistan and this has caused 
some concern because of the fact that the total numbers of 
spinal cord injured has been over the long course of the war 
been much lower than that. In that short time period, this was 
a high number. And so it continues.
    Our interest in these programs is that, you know, I had an 
OIF blinded servicemember that sent me an e-mail about the 
Special Housing Grant Program, which I included in my testimony 
because it sort of explains some of the frustration. While he 
was happy that he got the $10,000 grant in 2007, I actually had 
to spend $27,000 to do the adaptive housing changes that he 
needed to provide room and space for his computer, the 
monitors, the scanners, the printers, and the magnifiers in 
order for him to complete his college degree.
    All this was great VA adaptive technology that was provided 
to him as a blind veteran, but you have to have a place in 
order to store it and a way for that equipment to be connected. 
A lot of the blind veterans have unique requirements in regards 
to writing and electrical work and the current amounts do not 
cover that.
    We agree with the discussion about the Temporary Residence, 
the TRA Grant, the concerns that family members who bring home 
a severely injured servicemember may have decided not to try to 
use that grant because of the fact that then they have to 
subtract it from the Specially Adaptied Housing money that the 
person may need eventually if they move into their own home.
    I wanted to point out we are always concerned about costs, 
but in my testimony, hopefully this will cause some careful 
consideration here, the cost for a nursing home now is $212 a 
day or $77,380 a year. For a semi-private room, it is $69,715 a 
year and for an assisted living center, it is an even $36,000.
    BVA would point out that those are recurring costs. You 
know, if you do adaptive housing and you spend whatever it is 
to allow an individual to live in their home for the next 40 
years, that is a one-time grant whether it is $180,000 or 
whatever the right amount should be.
    If you put a young servicemember in a nursing home at a 
cost of $78,000 a year times 10 years, start to add that up 
over 20 years, add that up over 30 years, it is just something 
that people ought to consider when they are looking at numbers 
and crunching and everything else.
    Anyway, I appreciate the opportunity to testify today. Our 
recommendations in the back include that, you know, I think 
that TRA is a good program, it should continue, but there 
should be a separate amount of money for those homes, you know, 
for the needs of those servicemembers.
    And last but not least, I have a blind servicemember in 
South Dakota that sometime I need to talk to you about, a side 
bar.
    So thank you for inviting me to testify.
    [The prepared statement of Dr. Zampieri appears on p. 29.]
    Ms. Herseth Sandlin. Very good. I look forward to visiting 
with you about that servicemember, Dr. Zampieri.
    Mr. Gonsalves, you are now recognized for 5 minutes.

                 STATEMENT OF JOHN S. GONSALVES

    Mr. Gonsalves. Chairwoman Sandlin, thank you for having me. 
I am very grateful to be here for the second time. And I do 
want to thank all Members of the Subcommittee. I have looked at 
recently, I just got the new VA handbook, and when I think back 
to a lot of what the last discussion was about, I see a lot of 
changes have been made in a very positive direction. And I 
think that is very important.
    Really two points that I think I would like to make today 
that really get to the crux of the problem. We want to look at 
specially adapted housing and its effectiveness. And any 
program can only be effective if it is funded correctly to 
really make this something that is going to make a difference 
in these servicemembers.
    And probably the most important piece that I brought in 
would be Exhibit 1 in here. And it does look through the years 
of how much the Specially Adapted Housing Grant was and how 
much it was compared to the cost of a home in those years.
    And one thing we look at is right now it is at its lowest 
percentage as far as covering the cost of a new home in the 
United States.
    Now, in the far left column where the years are, if you 
look at the first 3 years listed in the column and then you 
look at the bottom 3, they have something very unique in 
common. Those are wartime years.
    In 1969, 1972, and 1974, the grant as a percentage of the 
cost of a new home was steadily going up. It went from 43 
percent in 1969 to 58 percent in 1972 to its high in 1974. The 
grant was $25,000 where the average cost of a new home in the 
United States was $39,000. So at that time, it covered 64 
percent of the cost of a new home in the United States.
    Again, the bottom three numbers are wartime numbers again. 
And we look at 2001 where the $48,000 covered only 23 percent. 
And the next two times we have raised the grant, it went up in 
2003 and again in 2008, but right now we are at our lowest 
point when we look at the grant as a percentage of the cost of 
a home.
    If we went back, and I do appreciate that it is on the cost 
of living index now, which I think was a very important 
decision that was made, had we done that in 1974, the grant 
right now would be $187,000. And I think those are really the 
types of changes we need to look at. Let us make real changes 
to this program and that is where we can look at this program 
and really find it effective.
    When we are talking about homes, one of my colleagues 
mentioned, you know, the VA grant at $60,000, if you owned a 
home, that may be okay to do some of what is needed. But my 
background came in construction. I have never served in the 
military. I have never been with a Veterans Service 
Organization. I come from the private sector. And I can tell 
you even the few veterans that have applied to our program that 
have owned homes, we have looked at them, they just were not 
designed to be made handicap accessible. So that is going to be 
an issue.
    When we talk about soldiers, you know, a soldier like Matt 
Kyle who we built a house for in Colorado, he was shot in the 
neck by a sniper, he needed a very special home that needed to 
be built. This is not something that was available. And it has 
voice activated controls and everything Matt needs. He is 
paralyzed from the neck down.
    I think fundamentally we have to ask ourselves, and I 
respectfully ask the Subcommittee to think about if this 
question was posed to you from a soldier like Matt Kyle who on 
maybe his third or fourth tour of combat asked a Member of this 
Subcommittee, ``I came home after serving my country in combat, 
I was cut down by a sniper in Iraq, why is it only worth 
$60,000 to my country,'' how would we answer that question?
    I had a similar question posed to me in 2004 when watching 
TV, I saw the story of a soldier who had lost both of his legs 
in Iraq. And I thought Homes For Our Troops was already out 
there doing this. And I went online because I had 2 weeks 
vacation and I was going to donate my 2 weeks time. There was 
no organization like Homes For Our Troops at the time. I asked 
myself a question, what am I going to do about it. And that is 
why I am here today.
    And I think we really need to ask ourselves some 
fundamental questions. Are we really going to make this the 
American dream possible for these men and women? If we are, we 
need to find a way to fully fund at least $187,000.
    Homes For Our Troops relies on volunteer labor, donated 
materials, and that number there would still only cover half 
the cost of what we spend to donate these homes. And we have 
done nearly 50 so far and we have 30 plus that are under 
construction right now. And we are looking at the next group of 
30 veterans that we are taking on over the next couple of 
months. These are the kind of changes that will really make 
that impact.
    Thank you.
    [The prepared statement of Mr. Gonsalves appears on p. 31.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony, for being back here at the Subcommittee, and for the 
outstanding work that you are doing on behalf of so many of our 
veterans.
    Let me start with the Temporary Residence Adaptation Grant 
Program. Mr. Wilson, you had mentioned three specific 
recommendations, decoupling that program so as to avoid the 
reduction in payments, increasing the allowance, and your third 
recommendation, can you repeat that for me, please?
    Mr. Wilson. Yes, ma'am, as soon as I can find it. Here we 
are. Yes. The third recommendation was for those veterans who 
are eligible for the Special Housing Adaptation grants, SHA, 
Congress should increase that amount from the current $2,000 
cap to a $5,000 cap.
    Ms. Herseth Sandlin. Mr. Daley, you had indicated you agree 
with the decoupling, and in the written testimony of Mr. 
Gonsalves, he indicated the need to increase the amount of the 
Specially Adapted Housing Grant specifically to TRA.
    Did the other panelists agree with all three of those 
recommendations.
    Mr. Daley.
    Mr. Daley. Yes, ma'am, I do agree. The actual amount, I was 
concerned that you would ask how much should it be.
    Ms. Herseth Sandlin. I was going to ask you that as a 
follow-up question actually.
    Mr. Daley. I have a colleague over here that knows a lot 
more. I have never knocked out a wall with a hammer. I know 
nothing about construction, but we know that that cost rises 
constantly.
    And I have talked to other veterans in wheelchairs and they 
say, I may use that grant to put a lift in, if you have a 
bungalow style house with a big front porch that is 42 inches 
high, you are going to have to put one of these Canadian 
Garaventa lifts. Twenty thousand dollars right there to get you 
up to the front door, not even in the front door.
    So when you think about it, some people can get by with 
that amount of funding but it does not make the house usable.
    And I have known people that have actually added on another 
room, a big room, accessible, that becomes the person's family 
room and bedroom. And what does a room cost? It is $50,000, 
$60,000 at a minimum. So it definitely should be increased.
    Ms. Herseth Sandlin. Do we have any information on the 
average out-of-pocket cost beyond the $63,000 plus of the 
current grant?
    Mr. Daley. No, ma'am, I do not. I am curious of that also. 
It is probably all over the board because I know where I came 
from in the St. Louis area, on the weekends, there were 
projects where people come out to do volunteer work on homes 
for our veteran. So, you would actually have to count that as 
hours of labor cost.
    Ms. Herseth Sandlin. Right.
    Mr. Daley. So I do not have an actual figure. But, 
somewhere we can arrive at something.
    Ms. Herseth Sandlin. That or the historical numbers that 
Mr. Gonsalves offered here are also very helpful in terms of if 
the grant had been indexed to inflation back decades ago what 
it would be today and what the cost of the homes are today. And 
it gives us some numbers to work from. But anything that we 
could get to figure out on average what additional monies are 
being paid out of pocket.
    But back to the other recommendations. And I assume, Dr. 
Zampieri, Mr. Gonsalves, you agree with the recommendations on 
the application of TRA?
    Mr. Gonsalves. TRA.
    Mr. Gonsalves. Yes.
    Ms. Herseth Sandlin. Doctor, you as well.
    Mr. Zampieri. Yes.
    Ms. Herseth Sandlin. One of the concerns that Dr. Zampieri 
has is with the updated version of the handbook. Could you 
elaborate for us if the handbook is helpful for visually 
impaired veterans or what further provisions would your 
organization like to see in the handbook?
    Mr. Zampieri. Yeah. The handbook is helpful. A lot of the 
modifications in regards to lighting and additional electrical 
outlets and all those things and then the----
    Ms. Herseth Sandlin. You had mentioned that in your oral 
statement that you would like to see those types of adaptations 
added.
    Mr. Zampieri. Right.
    Ms. Herseth Sandlin. So maybe a comprehensive list of what 
would be available.
    Mr. Zampieri. Okay. And then----
    Ms. Herseth Sandlin. Is that----
    Mr. Zampieri. Right.
    Ms. Herseth Sandlin. Okay.
    Mr. Zampieri. And then the voice activated types of devices 
are also, you know, being mentioned, especially for blind 
veterans who nowadays, you know, live alone. All those things 
add to safety and other things.
    Ms. Herseth Sandlin. Mr. Gonsalves, you had expressed 
concerns that, I think in terms of some requirements in the 
grants, there are injuries that require some adaptations, which 
may be mandatory. But it would be helpful to have some 
additional flexibility in the grants. Is that correct.
    Mr. Gonsalves. Yes.
    Ms. Herseth Sandlin. Okay.
    Mr. Gonsalves. And I think some of that may have been taken 
out. I hadn't seen the new VA pamphlet. I had not seen it 
before in the testimony.
    But one of the things that Homes for Our Troops does now, 
and you can tell from one of the pictures that we have here, we 
have a soldier who is actually before his house is being built, 
this is under the fully functional kitchens for mobility, we 
qualify what types of adaptations are going to happen in a 
house based on injury.
    And I guess it would sort of work the way the VA rates 
disability percentage. At the time a servicemember gets 
qualified for SAH, we have enough information at that time. And 
what Homes for Our Troops has done is we have an adaptation 
check list.
    We only have five sets of home plans that we build. And the 
footprint is always the same. The windows are always the same. 
The floor plan is always the same. But there is an adaptation 
check list based on what the soldier needs. And that is why I 
provided some photos in here. It really gives you an idea.
    You know, obviously a quadriplegic would need a lift and 
care system where somebody that has the mobility of their upper 
arms probably does not need it.
    And I think at the time of being qualified for SAH, 
basically all the technology is there. We have built for, I 
think, every type of injury out there from amputees who are 
blind to different levels of spinal cord injuries.
    So we know what is available to put in a home and it would 
be really great to be out in the front once they qualify a 
whole check list be put together.
    Ms. Herseth Sandlin. I think that is very helpful. I think 
that you have some ideas and recommendations that would be 
helpful and would like you to share those with us and with the 
VA.
    I think in addition to what they have done to update their 
pamphlet, to have someone who has undertaken the mission that 
you have undertaken, doing this work on the ground would be 
beneficial in creating those types of check lists.
    I would also think that it would be somewhat beneficial 
based on the work that you have done and having these check 
lists for the different types of injuries that a veteran may 
have suffered from and how to construct homes suitable to his 
or her needs as it relates to the overall cost of that.
    And I know that you agree that in addition to TRA that the 
Specially Adapted Housing Grant be increased. And, that is sort 
of the historical analysis that you are providing, specifically 
on Exhibit 1 for that grant.
    Do you have a ballpark figure? Again, knowing that if we 
had adjusted it to inflation, it would be up to $187,000. But 
based on the work you have done and the relative cost of doing 
that, do you have a ballpark figure?
    Mr. Gonsalves. Yes. On average, we have averaged $343,000 
for the cost of building a new home.
    Ms. Herseth Sandlin. So that is even greater than the 
average new home price?
    Mr. Gonsalves. Right. But these are, you know, 100 percent 
fully adapted homes which, you know, they do cost a little more 
to build. You need a little extra square footage compared to 
what the average home that the Census Bureau uses.
    Ms. Herseth Sandlin. Okay.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it.
    Mr. Wilson, if you were to define loss of use, should any 
residual function, any limb disqualify someone from eligibility 
for the adaptive housing benefit?
    Mr. Wilson. Excuse me, sir. Would you please repeat the 
question?
    Mr. Bilirakis. Okay. I am sorry. If you were to define loss 
of use, should any residual function, any limb disqualify 
someone from eligibility for the Adapted Housing Grant?
    Mr. Wilson. No, sir, I would not think so.
    Mr. Bilirakis. This is a question for the entire panel. 
Keeping in mind, there are limitations imposed by PAYGO. If 
there is one change to the TRA Program you could make, what 
would it be?
    Mr. Wilson. Sir, if there is one change I can make, I would 
first and foremost delink it from the SAH and SHA grants.
    Mr. Daley. I would agree with that. Make it a separate 
grant, a separate pool of money. And that way, we will see more 
veterans using it. I myself knowing that I only have $63,000 to 
renovate a home not use it temporarily for 6 months while I am 
living with mom and dad, I would not use it.
    Mr. Bilirakis. Thank you.
    Mr. Zampieri. Yes, I agree with that. I think, you know, it 
is either that or you try to increase the total amount and, 
therefore, you are still doing the same thing, you know, with 
the SHA or the, you know, as far as, you know, either way you 
go, you are going to have a problem because you are going to 
have to increase the amounts either just for the TRA or SHA.
    Mr. Gonsalves. I agree. I would just make the TRA a 
separately funded project and not tie it into the adapted 
housing money and have to deduct that. I do not believe many 
veterans have actually used it.
    And, you know, although I do not have any statistics, I 
would think I would go the same way if I had to make that 
choice and looked at the amount of a grant I had for a 
specially adapted home and I knew I could use some of that 
money for a temporary 6 months or maybe a year, when we look 
at, you know, $14,000 compared to $60,000 as a percentage, you 
are taking a good percentage of that funding out by doing that 
and I know I would not do it.
    Mr. Bilirakis. Thank you very much.
    Mr. Daley, in your testimony, you described several 
features such as ramps, doorways, bathrooms, kitchens, and 
bedrooms that may need adaptation to accommodate a chair-bound 
veteran.
    Since PVA has an architect department, does PVA have any 
data showing the total cost of such renovation.
    Mr. Daley. No, sir. I am not aware of data that shows the 
total cost because we do not perform construction, but we do 
advise in accessibility and we certainly go by the Federal 
standards.
    And I want to make something clear that in the testimony, I 
said that PVA reviewed the VA's new pamphlet. We did not 
approve. We reviewed. So it does not have our seal of approval 
on it.
    Mr. Bilirakis. Okay. Thank you very much.
    Thank you, Madam Chair. I yield back the balance of my 
time.
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis.
    I would now like to recognize the Ranking Member who I know 
had a markup in his other Committee.
    Thank you, Mr. Boozman. I recognize you for questions.
    Mr. Boozman. Well, thank you very much, Madam Chair.
    And I really do not have a question for this panel, but I 
appreciate you again having this hearing. This is one of the, I 
think, most important things that our little Subcommittee deals 
with.
    And so it is important that we give all the aid that we can 
and get this thing right and certainly are committed to moving 
this forward. So we appreciate you all very, very much.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Just a couple more questions that I have for this panel.
    Mr. Wilson, in your testimony, you state that changes in 
the nature of a veteran's disability may necessitate a home 
configured differently and/or changes to the special 
adaptations.
    Do you know how often there is a change in the nature of 
the veteran's disability? I mean, do we have any figures that 
we could work from.
    Mr. Wilson. No, ma'am, I do not. I know, as Mr. Daley had 
indicated and others on the panel, we have spoken to veterans 
in the field and understood from their concerns, as their 
particular disabling conditions change, they ask for different 
additional assistance, but having reached the funding ceiling, 
no further assistance is available to them. And so it has made 
it more problematic for them to utilize the program again.
    There are three opportunities to use SAH for a total of 
$60,000. But as Mr. Daley was indicating, that certainly can be 
quickly consumed due to the various costs of construction. I 
understand from personal experience myself of a home having a 
water disaster this summer. Just to get that part done cost me 
$12,000 just to replace the flooring.
    So as I said, personal experience is a difficult teacher, 
but lots of our veterans are learning from a much more 
difficult circumstance than a malfunctioning water heater.
    Ms. Herseth Sandlin. Okay. Mr. Daley, thank you for 
bringing to the Subcommittee's attention again the maximum 
amount of the mortgage life insurance. We will certainly take a 
look at both Senator Akaka's bill and H.R. 1037. I appreciate 
the point that you made and the specific example that you 
shared with us from the veteran that you heard from down in 
Georgia.
    One last question, Dr. Zampieri, can you explain the 
difference in changing the Specially Adapted Housing Grant from 
5/200 to 20/200 with regard to visual impairment?
    Mr. Zampieri. Yes. In fact, thank you very much. I was 
afraid someone did not notice that. And also I appreciate that 
Congressman Boozman just coincidentally showed up at the right 
time.
    I am legally blind. I cannot drive. A lot of jobs I cannot 
do. My vision is worse than 20/200 and I do not qualify for 
anything under this program because the requirement is 5/200, 
which is really just you cannot tell if there is a light on. 
There is no light/dark perception for lack of a better way to 
describe it.
    If somebody has 5/200 and they wave their hand in front of 
their face and you do not see it, you, quote, meet this 
requirement of totally blind.
    Our concern is, and this is a growing thing, a lot of the 
traumatic brain injured servicemembers who have significant 
functional impairments who need extra lighting and all these 
other things get zip.
    When I was in Houston and I was first service-connected for 
my blindness, for example, because of the 20/200 vision, they 
said no. So I went and I ended up spending about, not a whole 
lot, but almost $7,000 to do the modifications to my house in 
Houston because, you know--and so the total numbers of 
servicemembers coming back that would be 5/200 is fairly low.
    In fact, the Navy says there is less than 20 in the last 8 
years out at Bethesda. But there are 140 that are enrolled in 
the VA with this 20/200 and are told no. And so it is a 
frustrating thing.
    And I realize, of course, you know, the magic problem is if 
you change this section and you open it up to 20/200 is the 
definition of blindness, then, of course, you know, the 
automatic reaction is, uh-oh, you are going to expand the cost 
of the program.
    And I, you know, am always suspicious of that. It is sort 
of like a couple years ago when you did the TRA legislation. I 
am sure people initially reacted by saying this is going to 
cost millions and millions and you are going to have all sorts 
of veterans applying for this. And the experience which I have 
is it usually is not that way. You know, people do not apply 
automatically.
    But I think Mr. Boozman may have some thoughts about this 
problem of the vision complications.
    Mr. Boozman. I appreciate you bringing that up. And you 
make such an important comment. Probably the VA is the only 
entity in the world, you know, that uses that standard versus 
the 20/200 standard.
    As an optometrist, I helped start--in fact, I started the 
School for the Blind's Low Vision Program in Little Rock. And I 
would say probably, you know, 90 percent of the kids in there 
would not meet the--did you say 5/200 was the standard? I mean, 
that is the standard that I am familiar with because nobody 
uses it. Okay.
    But I would say if you looked at all the kids in blind 
schools or schools for the impaired, the vast majority, vast, 
vast majority, there is no way that they would meet a 5/200 
standard. Most people that, and lay people do not understand 
this, but most people that are blind have a lot of usable 
vision that can be worked with.
    And it truly does, you know, going in and setting up a 
kitchen or setting up a house so that a person can easily pour 
a cup of coffee, you know, do things that we just take for 
granted, somebody might really struggle with that, that it did 
not meet this definition of vision which is so stringent in the 
VA.
    So I think you make a great point. I think hopefully we 
can--I know that Ms. Herseth Sandlin and her staff and my 
staff, that is something that we really do need to address 
right now.
    And, again, I think I can be helpful in that because I 
really do understand it. So thank you for bringing that up.
    Ms. Herseth Sandlin. Yes. And thank you, Mr. Boozman. I 
look forward to working with you.
    Mr. Boozman. It was providence.
    Ms. Herseth Sandlin. That is right.
    The timing was perfect. Again, you make the very important 
point, Doctor, about the impact of some of the traumatic brain 
injuries that our servicemembers are suffering. And so I think 
given Dr. Boozman's expertise, given the thoughtful testimony 
you have provided today that we will work with you and together 
here with the Subcommittee and the VA to take a look at making 
this important change.
    I would also encourage all of you and with our next panel 
to work together. We appreciate the update to the handbook, but 
it looks like we may have missed an opportunity that we need to 
seize once again to be even more comprehensive with that update 
as it relates to integrating some modern technologies, again 
putting our heads together in light of the experience of 
members of your organizations and, of course, Mr. Gonsalves' 
professional endeavor and volunteer endeavor with his 
organization and with his professional expertise that we can 
create a more comprehensive check list. At the same time we are 
looking at what we can do to improve the grants, whether it is 
through decoupling, whether it is through increasing the 
amounts and other recommendations that you have made for us 
here today.
    I thank you all very much for your testimony, for your 
commitment to our Nation's veterans and will look forward to 
working with you further.
    Mr. Gonsalves. Thank you.
    Ms. Herseth Sandlin. We now invite our witness for the 
second panel to the table. Participating on the second panel is 
Mr. Mark Bologna, Director of Loan Guaranty Service for the 
U.S. Department of Veterans Affairs.
    Mr. Bologna, thank you for being here. Welcome to the 
Subcommittee. Again, your written statement has been entered 
into the record and so you will be recognized for 5 minutes. 
And we will have some questions for you.

 STATEMENT OF MARK BOLOGNA, DIRECTOR OF LOAN GUARANTY SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Bologna. Madam Chairwoman, Ranking Member Boozman, and 
Members of the Subcommittee, I appreciate the opportunity to 
appear before you today to discuss VA's Specially Adapted 
Housing Program.
    Eligible veterans may use a grant from VA to purchase or 
construct a home or to adapt an existing one to meet their 
needs. Through the SAH Grant Program, thousands of veterans 
have been afforded a level of independent living they may not 
have otherwise enjoyed.
    VA administers, as you know, three types of grants under 
the SAH Program. To be eligible for a grant, a veteran or a 
servicemember must be entitled to VA compensation benefits for 
permanent and total service-connected disabilities. Amounts of 
assistance are subject to aggregate maximums and no individual 
may receive more than three grants of assistance.
    The Adaptive Housing (AH) Grant, the smaller grant, is 
available to individuals whose disabilities are due to 
blindness in both eyes, the anatomical loss or loss of use of 
both hands, or severe burns.
    With the enactment of Public Law 110-289, the maximum 
amount of assistance is now tied to an annual cost of 
construction index and was recently increased by 6.3 percent to 
$12,756. This grant may be used to purchase, construct, or 
adapt a home owned by the eligible individual or to adapt a 
home owned by a member of their family.
    The Paraplegic Housing (PH) Grant is the larger grant and 
is available to severely disabled individuals who are entitled 
to assistance due to the loss or loss of use of both lower 
extremities or of both upper extremities. The law also provides 
eligibility be based on other types of injuries such as 
blindness and loss or loss of use of one lower extremity in 
combination or severe burns. The maximum amount of assistance 
for this grant is also adjusted annually and was increased to 
$63,780 on October 1st.
    Unlike the AH grants, which may be used to adapt the home 
of a family member, PH grants are only available to purchase, 
construct, or adapt a home owned by the veteran or 
servicemember.
    The TRA Grant is available to an individual who is 
temporarily residing with a family member and is otherwise 
eligible for either a PH or an AH Grant. An individual eligible 
for the PH Grant may receive up to $14,000 while the veteran or 
servicemember eligible for the AH Grant may receive up to 
$2,000. Unlike the PH and AH grants, VA does not have the 
authority to adjust these amounts to keep pace with costs of 
construction.
    Between fiscal years 1989 and 2006, VA provided an average 
of 500 grants per year. In fiscal year 2009, we approved 1,270 
grants. That is an increase of 140 percent between fiscal year 
2006 and fiscal year 2009 and we expect that upward trend will 
continue.
    Congress made a number of legislative changes to this 
program in recent years. Most notably Congress changed the 
program from a one-time use to a three-time use. This change 
allowed individuals to make additional adaptations to their 
homes or upgrade existing modifications.
    Additionally, if they move to another home, and have 
remaining eligibility, they can now use the program to adapt 
their new home.
    These legislative changes have significantly improved the 
benefits available to severely injured veterans and 
servicemembers and they have increased the overall flexibility 
of the program.
    However, as noted in VA's report to Congress published in 
August, there are statutory inadequacies that may prevent a 
number of individuals from receiving much needed assistance.
    According to VA's survey in 2007 of SAH grantees, most AH 
recipients, again the smaller grant, indicated that the grant 
amount was not enough to cover the full cost of adaptations. As 
a result, they may have incurred significant out-of-pocket 
expenses or had to rely on the generosity of others.
    In other cases, veterans or servicemembers who have 
service-connected conditions that may benefit from home 
adaptations are not eligible due to the fact that the law 
specifies a finite list of qualifying disabilities.
    Congress created the TRA Grant in 2006 and extended the 
benefit to active-duty servicemembers in July of 2008. As you 
know, since the inception of the grant, VA has dispersed 12 
grants and approved an additional five for processing.
    There are several factors that may explain why so few 
individuals have chosen to use this valuable benefit. First, 
GAO reported that several veteran service organizations believe 
the number of veterans and servicemembers whose living 
situation is appropriate for TRA could, in fact, be very small.
    Second, severely injured servicemembers often face a 
difficult transition when returning from combat and may not be 
ready to make decisions regarding their living situation. 
Consequently, these eligible individuals might delay or even 
opt out of using the TRA benefit.
    Additionally, when individuals use the TRA Grant, their 
opportunity to receive future assistance is limited in two 
ways, as you know. The amount of the grant is deducted from the 
aggregate amount of assistance available and the use counts as 
one of the three uses.
    As a result, an individual needs to consider their future 
plans in terms of using the AH or PH Program before deciding 
whether to use a TRA Grant.
    In addition, the GAO report noted comments from other 
veteran service organizations that additional outreach to 
servicemembers and veterans about TRA could potentially 
increase the use.
    Finally, the Subcommittee requested information about our 
Handbook for Design and we already heard some information about 
that. VA worked in conjunction with a graphics designer and we 
sought advice from Carol Paredo Lopez, the National 
Architecture Director for the Paralyzed Veterans of America. We 
published the pamphlet on our Web site in October and we will 
continue to work with the industry to regularly update the 
guidance provided in that pamphlet.
    Madam Chairwoman, this concludes my testimony. Again, I 
appreciate the opportunity to be here today and I look forward 
to answering your questions.
    [The prepared statement of Mr. Bologna appears on p. 35.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony.
    I recognize Mr. Boozman to begin our questions.
    Mr. Boozman. Thank you very much, Madam Chair.
    The Chair and I have supported increasing the benefit 
levels and introduced H.R. 1169 to triple the benefit levels. 
You have testified for an increase in the adapted housing 
benefit, yet your data shows that average payments are $9,256 
for the Adapted Housing Grant and $43,353 for the Paraplegic 
Housing Grant.
    What should the benefit levels be and will the 
Administration be requesting an increase in any or all of the 
SAH grants.
    Mr. Bologna. Thank you for the question, sir.
    The information we provided that you referred to, the 
average on the AH Grant of $9,266 or $9,256, excuse me, that 
was based on the total AH Grant usages in fiscal year 2009. 
There were 81 of those. That included reuse, so that brought 
the number down. The number, if I isolate that number to those 
that only used the AH Grant in 2009 for the first time, the 
average was $10,600 and the median was $12,000, which was also 
the maximum.
    In regards to your question about what should the numbers 
be, I would point out that in our report, we mention that we 
have been told through the SAH survey that we do of veterans 
and servicemembers that use our grant program that they believe 
that in many cases, the grant is not sufficient.
    We, as the first panel mentioned, we have heard as well 
from veteran service organizations that they are concerned over 
that. And we noted in one of the two reports to the Congress a 
fairly recent New York Times article that also expressed that 
concern.
    Mr. Boozman. Very good.
    Mr. Bologna. Thank you.
    Mr. Boozman. First of all, I would like unanimous consent 
to introduce my statement into the record.
    Ms. Herseth Sandlin. Without objection, so entered.
    [The prepared statement of Congressman Boozman appears on 
p. 24.]
    Mr. Boozman. And then if it is okay, let me read just a 
little bit of it because it kind of addresses, I think, what we 
might have is maybe catch-22 situations in some cases.
    Let me start with, currently one of the limitations for the 
large grant is loss of or loss of use of both lower extremities 
such as to preclude locomotion without the aid of braces, 
crutches, canes, or wheelchair.
    And then that is the regulation, but as presently worded, 
it is my understanding that an amputee whose remaining leg 
retains some function however minimal would not qualify for the 
larger grant or, put another way, the remaining leg must have 
no functionality.
    Likewise, I find no temporal limitation on the loss of 
locomotion. For example, someone who required the use of 
crutches, a cane, or a wheelchair for several months but may 
eventually be able to move without such aid may also not 
qualify.
    It is possible that, you know, we are wrong in that 
interpretation, but we have received a lot of anecdotal 
examples of such limitations on the application of the current 
law.
    I guess what I am saying is if we are correct in our 
interpretation that that is a problem, then what we would like 
to do is work with the Chair and work with you all and get it 
straight.
    Is that a problem as I am saying? One of the things that is 
happening right now is that it appears that there is an effort 
to save limbs even if they are not of much use, but they are a 
limb and this and that. So can you comment on that for us.
    Mr. Bologna. Yes, sir. The decision as to whether, and 
obviously the decision is based on Compensation and Pension 
Service in VA makes their rating determination, but those 
determinations are based on the medical exam and the findings.
    And so as a result, and I think you hit it specifically, if 
the ability to ambulate on the lower extremities without the 
use of crutches, braces, or other means, if the person cannot 
ambulate without those things and it is found to be a permanent 
condition, then the determination is that they are going to be 
eligible. If they are able to ambulate with some assistance or 
without assistance, then they would not be eligible as it 
stands today.
    Mr. Boozman. If it is okay with you, could he----
    Ms. Herseth Sandlin. Yes.
    Mr. Boozman [continuing]. Address the----
    Ms. Herseth Sandlin. Certainly. We will recognize counsel.
    Mr. Boozman. That way, we will not have a three-party 
thing.
    Mr. Bologna. Yes, sir. Yes, sir.
    Mr. Brinck. Thank you, Mr. Bologna.
    As you know, Master Sergeant Gibson is on our staff, a 
fellow active-duty Marine who is an above-the-knee amputee. And 
he was mentioning several of his friends who are amputees, one 
leg, with virtually no but maybe some small residual remaining 
functionality. Maybe they could stand on a leg, but certainly 
could not walk, but they have been denied Adapted Housing 
grants based on that residual or retained functionality. And I 
think that is what we are trying to get at here.
    Mr. Bologna. Sure. I would like to take that for the record 
and get more details from the medical professionals both in 
Veterans Health Administration as well as my counterparts in 
Compensation and Pension.
    My understanding is that if, the person is not able to 
ambulate on their own, even if the limb is still physically 
present, then they should meet the criteria.
    So I am certainly happy to interact with you all on any 
specific veterans, but I would like to take it for the record 
and get someone with a medical background to address that for 
me----
    Mr. Boozman. Okay.
    Mr. Bologna [continuing]. If that is acceptable.
    [The VA provided the answer in Question #6 of the Post-
Hearing Questions and Responses for the Record, which appears 
on p. 51.]
    Mr. Boozman. And I appreciate the Chair's indulgence in 
letting counsel ask the question because it really is 
important.
    I mean, the intent of this Committee, the intent of all 
this, and I said earlier we deal with a lot of things on this 
Committee, but I think all of us up here, the entire Committee 
really feels like this is one of the most important things that 
we deal with.
    But we do not want some situation like was mentioned with 
the 20/200 vision where that is not--20/200 is the accepted 
rating for blindness throughout the world, certainly throughout 
the United States. But we do not want some catch-22 where these 
severely injured guys do not qualify for some mess-up in the 
law where you cannot do that.
    So if you would find out what is going on with that and 
then get back with us, that really would be greatly 
appreciated.
    Mr. Bologna. Yes, sir, absolutely. Thank you.
    Mr. Boozman. And also would you find out about the 
temporary--if a guy is going to be for 2 or 3 years in a 
wheelchair or something, you know, would that preclude. Again, 
we just do not want any catch-22 situations.
    Mr. Bologna. And the second part, Mr. Boozman, I believe I 
can answer, And that is the way that the program is set up 
today, it is a permanent condition. So if it is a temporary 
condition, then that would preclude eligibility.
    Mr. Boozman. Okay. Even if it were for an extended period?
    Mr. Bologna. Again, I will take that to get clarification, 
if I may.
    Mr. Boozman. Okay. Thank you very much.
    Mr. Bologna. Thank you, Congressman.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you.
    Would it preclude eligibility, if the condition is 
temporary, would it preclude eligibility for TRA.
    Mr. Bologna. I believe it would, in that again the way the 
TRA Grant Program works is that you have to be otherwise 
eligible for either the AH or the PH and those are both based 
on permanent loss of use.
    Ms. Herseth Sandlin. Well, following up on Mr. Boozman's 
concern, I want to make sure, too. He cited the visual 
impairment example that Dr. Zampieri mentioned in his testimony 
but also any residual use.
    I mean, you stated in your testimony there has been a 140 
percent increase.
    Mr. Bologna. Yes.
    Ms. Herseth Sandlin. That is of people who have been 
eligible.
    Mr. Bologna. Correct.
    Ms. Herseth Sandlin. So it somewhat skews the analysis 
either from your office or the Office of Management and Budget 
(OMB), for us to assess in looking at annual budget need all of 
these people who may be denied the grants based on some of 
these questionable eligibility determinations. Therefore, it is 
very important if you can pursue this and get back to us.
    Mr. Bologna. Sure.
    Ms. Herseth Sandlin. Because I know OMB is currently 
putting together fiscal year 2011 and we are looking at this 
increase that you had given us as a projected outlook for grant 
usage.
    Just given that 140 percent increase, how long will this 
increase of usage for the Specially Adapted Housing grants last 
and are you confident that you have the resources to meet the 
need?
    Mr. Bologna. Sure. Thank you.
    We have not projected it out 10, 15, 20 years. We just 
looked to the next 2 or 3 years. We can certainly continue to 
look. We believe that the increase is due in large part to the 
work of Congress over the last couple of years in changing the 
program and making it available essentially and useful to many 
more people.
    We do anticipate that we are going to continue to see, 
again, we approved nearly 1,300 grants in the last fiscal year, 
we expect that we will exceed that this coming year. We do have 
in terms of the staffing, we believe we have more than enough 
staffing today. I guess I should not say more than enough, but 
we have enough staffing.
    One of the things that we are doing in addition to 
addressing the folks that are coming in and using the program 
is continuing to expand and think of new ways to do outreach to 
make sure that everyone knows whether they are eligible or may 
be potentially eligible, that they know about the benefit.
    Ms. Herseth Sandlin. I appreciate that, the efforts at the 
outreach as well and how important that is. In light of some of 
the changes that Congress has made, we want to make sure it 
gets to all of the folks and all of the regional offices to 
make sure there is consistency of interpretation of any new 
regulations and the provisions and legislation that we have 
passed.
    You also highlighted some of the findings of the 2007 
survey of those using Specially Adapted Housing. You mentioned 
that most grantees felt the current grant program was not 
sufficient to cover the cost of adaptations.
    Did the survey inquire as it relates to any cost above the 
grant amount, what the out-of-pocket costs are, what 
charitable, amounts of charitable donations or volunteer 
efforts to meet the need? Do you have any of that type of 
information available that would assist us in determining an 
appropriate grant amount if indeed we could find ways to 
increase any mandatory spending in these grant programs?
    Mr. Bologna. We do not retain or maintain collection of 
data in terms of if needed adaptations exceed the amount. We 
mentioned----
    Ms. Herseth Sandlin. Did you ask even if you did not 
maintain the information?
    Mr. Bologna. I do not know. I will have to check. I do not 
know if we asked that specific question in the survey. We did 
mention and, excuse me----
    Ms. Herseth Sandlin. Uh-huh.
    Mr. Bologna [continuing]. While I flip through my note. In 
the report, one of the recent reports to Congress, we did 
provide a chart that showed some sample costs of typical 
adaptations. I believe one of the gentlemen on the previous 
panel mentioned something similar in terms of the typical 
kitchen remodel, in terms of the part that would need to be 
done in association with an adaptation, as well as some of the 
assistive devices with lighting and enhanced lighting and those 
sorts of things that would be beneficial. And we do provide 
information on sample costs there.
    Ms. Herseth Sandlin. What more should we be doing in your 
opinion for burn victims or veterans with visual impairments? 
Again, and maybe a specific response to Dr. Zampieri's 
testimony and Mr. Boozman highlighting the standard of 5/200 is 
used for eligibility determinations versus standard in the 
profession and what is recognized elsewhere outside the VA of 
the 20/200.
    Mr. Bologna. Sure. In terms of the second part, the visual 
impairment, I would defer to the medical experts both within VA 
as well as the Congressman and others in terms of the medical 
definition.
    Ms. Herseth Sandlin. Could you follow up with them, take 
the question for the record, and provide us a response from 
some of the medical experts within the VA to justify that 
standard?
    Mr. Bologna. Yes, I can do that.
    [The VA subsequently provided the following information.]

    The SAH program is currently limited by existing statute. 
Currently, all disabilities that entitle a Veteran to SAH 
benefits are required to be rated permanent and total (100 
percent). The existing 20/200 standard does not result in a 
permanent and total disability rating.

    Ms. Herseth Sandlin. Okay. Thank you.
    Mr. Bologna. In terms of the burn victims, we have been 
working on the regulation package. It is going through final 
approval now. We have been working, obviously while we are 
responsible for administering the Specially Adapted Housing 
Grant Program, working closely with medical experts as well as 
my counterpart in Compensation and Pension. I know they have 
worked closely with Paralyzed Veterans of America as well as 
some others.
    As this body knows, one of the challenges with the burns is 
the issue of the varying degrees of burns. Some affect the 
outer layer of skin. Some affect the inner. And some of those 
injuries that result in burns are temporary and the veteran or 
servicemember does regain some use. In other cases, the burns 
are so severe that they do not.
    So I know that the experts have been working through that 
in terms of trying to quantify that and put it in a way that we 
can put into practice and help servicemembers and veterans.
    Ms. Herseth Sandlin. Very good.
    My final question relates to the handbook. We appreciate 
getting the update in anticipation of this hearing. We passed 
the legislation requiring the update at the end of last 
Congress.
    In light of what we heard from the first panel and what I 
am hearing from counsel, we anticipated that this maybe would 
have been a little bit more comprehensive. And I know that you 
consulted with an expert working with PVA. It does seem to be 
focused on adaptations for veterans who may be bound to 
wheelchairs. And we were anticipating perhaps that we would 
incorporate adaptive technology available on the marketplace.
    Can you provide us some assurance that this is not the only 
update we are going to be seeing? We were anticipating 
something a bit more comprehensive and I would hope that you 
would be willing to work with the Committee and those that 
testified earlier in addition to the work that you did for this 
update to expand this either further, incorporate other options 
that are available that those in the construction industry 
could provide us.
    What are your thoughts when you put this update together? 
Was it something that you thought met our needs or was it sort 
of one step among others that you envision for updating the 
handbook.
    Mr. Bologna. Sure. Thank you.
    I think it is the latter. The handbook, the design handbook 
had not been updated in many, many years. And as you point out, 
we did work with PVA and appreciate their assistance. We talked 
to some others.
    It was a conscientious decision frankly not to publish it 
in hard copy but to put it on the Web and to only put it on the 
Web. And the reason for that primarily is so that while we are 
proud to have updated it, we think it is a big improvement, we 
recognize that there may be more to do.
    And in putting it on the Web, we can put it out there and 
certainly find if we have gaps, if there are still needs, and 
it sounded like certainly not only your comments but the first 
panel had some very good points. The nice thing about the Web 
is we can do an update as often as we need to.
    Now, obviously we put a lot of effort into it and want to 
make sure it is a good product, not one that we have to change 
every week, every month. But we are more than willing to work 
with not only this Committee but certainly the panel members to 
incorporate their ideas and to figure out are there other 
places we can get ideas. And certainly putting it on the Web, 
we can update it as frequently as need be.
    Ms. Herseth Sandlin. I am glad to hear that because I think 
we have a lot of ideas circulating and ways to improve the 
product.
    Do you have plans at any point to publish it or is this 
something that will be just Web based from here on out?
    Mr. Bologna. Sure. So I have been in my present job 
officially since January and on the ground probably since early 
summer. One of the first things that was presented to me was 
the Handbook for Design along with a purchase order request to 
have it printed. And I made the decision not to print it 
initially.
    If it stabilizes and we collectively, the audience for 
which it is intended, the people that have to use it, if we get 
to the point in say the next few months, next 6 months that we 
believe it has reached that level, then certainly we can print 
it.
    My intent was not to print something and then get advice 
and find out, gosh, you know, there are some more things we 
could have done that would make it an even better product. But 
certainly we can print it when or if the time is appropriate or 
we can continue to put it out solely on the Web.
    Ms. Herseth Sandlin. Well, I really appreciate your 
foresight and your judgment and the decision that you made in 
light of the moving parts of what was happening after the 
legislation was enacted and some of what may have been 
happening in your Department before you came on board. 
Recognizing that the stakeholders, those that will be using it, 
as well as veteran service organizations and, of course, the 
Committee just recently receiving it would like to have that 
chance to review to determine whether or not it meets the 
expectations and the needs.
    Mr. Bologna. Sure.
    Ms. Herseth Sandlin. We will look forward to following up 
with you and working with others that testified earlier in this 
hearing to make this as useful for those that are assisting our 
veterans in utilizing these grants as possible. We appreciate 
your leadership on the issue.
    Mr. Bologna, thank you very much for your testimony.
    Mr. Boozman, do you have any final questions?
    Mr. Boozman. Just very quickly, Madam Chair.
    The PVA pointed out that it takes from 6 months to a year 
to adapt a home, some of which is due to the approval process 
by VA.
    I guess the question is, what can we do, what can VA do, is 
there anything we need to do to help such that the claim is 
completed, you know, and the adaptation is put into place in as 
timely a fashion as we can?
    Mr. Bologna. Yes. Thank you.
    And I have not had a chance to read the first panel's 
testimony yet. Certainly every adaptation is unique and so 
there are some challenges sometimes and there is some back and 
forth.
    One of the things we have done earlier this year in the 
Loan Guaranty Service in VBA is to put a new system in place 
that allows us to track and get information on all of the 
adapted grants. Prior to this system, it was more of a legacy 
system, it was harder to compile the information. So from my 
perspective, from my desk, it is going to be increasingly 
easier to get information and to be able to track.
    The other thing that we have done as part of our overall 
accuracy reviews is we are now injecting some reviews before 
grant approval so that we will be able to take a look as time 
goes by.
    And, one, if there are bottlenecks because of not acting 
appropriately, we will know that, but, more importantly, if 
there are bottlenecks because of process or challenges, we can 
learn from that and improve--you know, it may be a combination 
of things, improving policy, improving oversight, those sorts 
of things.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Again, thank you, Mr. Bologna, for being here and your 
work.
    We thank all of our panelists who testified this afternoon 
for your statements, for your many insightful recommendations. 
We will continue to look forward working with all of you in 
partnership to address the growing needs of our veteran 
population, those who have been severely injured and would 
derive great benefit from these programs and modernize them to 
meet those needs.
    I thank you again, and the hearing stands adjourned.
    [Whereupon, at 3:31 p.m., the Subcommittee was adjourned.]


















                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    According to the Defense Manpower Data Center, at the Department of 
Defense, approximately 35,000 servicemembers have been wounded in Iraq 
and Afghanistan. Today, we will receive timely testimony that 
foreshadows the increased need for adaptive housing grants. In caring 
for our injured men and women in uniform, we must continue to address 
their needs so they may live as independent as possible after their 
honorable military service.
    Some of our panelists might recall a hearing we held on specially 
adaptive housing, early in the 110th Congress, in which we received 
testimony on ways to improve existing VA adaptive housing programs. 
Following this hearing, this Subcommittee worked with stakeholders to:

    <bullet>  Provide specially adaptive housing assistance to disabled 
servicemembers residing temporarily in housing owned by a family 
member;
    <bullet>  Require the VA to update its pamphlet on the construction 
and design of a specially adapted house; and
    <bullet>  Increase the amount of assistance available to disabled 
veterans for specially adaptive housing grants.

    While these legislative accomplishments are significant, today's 
hearing will provide the Subcommittee Members the opportunity to 
determine if the existing adaptive housing grants provide the needed 
benefits for our most injured servicemembers and veterans.
    I look forward to working with Ranking Member Boozman, Members of 
this Subcommittee and veteran advocates to ensure that our most 
critically wounded servicemembers are provided adequate benefits to 
modify their homes to achieve independence and comfort when they return 
home. I now recognize Mr. Boozman for any opening remarks he may have.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity

    Good afternoon Madam Chair. Although the Adapted Housing benefit is 
not the largest VA program for disabled veterans, it is among the most 
important. Without it, veterans with disabilities which affect their 
mobility will have difficulty living in their homes. Severely disabled 
veterans will face enough challenges in their lives and by adapting 
their homes to their disability will make at least that portion of 
their lives easier.
    On the whole, it appears the Adapted Housing program is working. VA 
data shows about 1,200 Paraplegic Housing Grants averaging $43,353 last 
fiscal year and 81 Adaptive Housing Grants averaging $9,256. VA also 
made 9 Temporary Residence Grants which averaged $13,314. VA 
satisfaction data shows the overwhelming majority of veterans regard 
the program as improving their lives and that is what it is all about.
    Madam Chair, during the 109th Congress, we created what is known as 
the Temporary Residence Adaptation Grant or TRA in which VA will modify 
the residence of a family member in which the veteran temporarily 
resides. We have also increased the grant amounts up to $60,000 and 
$12,000 depending on the level of disability.
    I believe there are other opportunities to improve this program 
without incurring PAYGO and I want to explore that further with our 
witnesses. Let me give you an example of what I am thinking. Currently, 
one of the limitations for the large grant is,
   ``the loss of, or loss of use, of both lower extremities such as to 
        preclude locomotion without the aid of braces, crutches, canes, 
        or a wheelchair.''
    As presently worded, it is my understanding that an amputee whose 
remaining leg retains some function--however minimal--would not qualify 
for the larger grant or put another way, the remaining leg must have no 
functionality. Likewise, I find no temporal limitation on the loss of 
locomotion. For example, someone who required the use of crutches, a 
cane, or wheelchair for several months but may eventually be able to 
move without such aid, may also not qualify.
    It is possible I am wrong, but we have received anecdotal examples 
of just such limitations on the application of the current law. But 
Madam Chair, if I am correct, I want to work with you to clarify our 
intent which is to take care of our severely injured veterans.
    Madam Chair, I look forward to hearing from our witnesses and 
hearing how we can improve the program. I yield back.

                                 <F-dash>
  Prepared Statement of John L. Wilson, Associate National Legislative
                  Director, Disabled American Veterans

    Madame Chairwoman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present testimony to the Subcommittee 
today and comment on programs insofar as they are in accordance with 
DAV's dedication to one, single purpose--building better lives for all 
of our Nation's disabled veterans and their families.
    Under consideration today are the Department of Veterans Affairs 
(VA) Specially Adapted Housing (SAH) Grant Program, the Special Housing 
Adaptation (SHA) Grant Program, as well as the Temporary Residence 
Assistance (TRA) Grant Program. I will primarily address the SAH and 
TRA Grant Programs in my testimony today.
    Congress enacted Public Law 109-233, the Veterans' Housing 
Opportunity and Benefits Improvement Act of 2006, to improve the 
benefits available to veterans and servicemembers to address the needs 
of the now approximately 34,000 servicemembers wounded since May 2009, 
as part of Operation Enduring Freedom or Operation Iraqi Freedom. The 
Act allowed the VA to expand previously existing adaptive housing 
assistance grants to include the TRA Grant for eligible individuals 
living in temporary status in a home owned by a family member.
    The SAH and TRA adaptive housing assistance grants are provided 
specifically to service-connected disabled veterans rated 100 percent 
permanently disabled due to at least one of the following: the loss or 
loss of use of both legs in a way that precludes locomotion without the 
aid of braces, crutches, canes, or a wheelchair; blindness in both eyes 
and loss of use of one leg; the loss or loss of use of one leg together 
with residuals of organic disease or injury; or the loss or loss of use 
of one arm affecting the functions of balance or propulsion in a way 
that precludes locomotion without the aid of braces, crutches, canes, 
or a wheelchair; the loss or loss of use of both arms so as to preclude 
the use of the arms at or above the elbows; or a severe burn injury; 
the loss or loss of use of both arms so as to preclude the use of the 
arms at or above the elbow. Severe burns will also be added to the list 
of disability criteria for SAH and SHA once new criteria have been 
adopted. These grants allow eligible individuals to construct an 
adapted home or modify an existing home to accommodate their 
disabilities.
    The SAH Grant Program provides financial assistance to veterans and 
servicemembers who are entitled to compensation for permanent and total 
service-connected disability due to the loss or loss of use of multiple 
limbs, blindness and limb loss, or a severe burn injury. Eligible 
individuals may receive up to three SAH grants totaling no more than 50 
percent of the cost of a specially adapted house, up to the aggregate 
maximum amount of $60,000, adjusted annually based on a cost-of-
construction index.
    The DAV views the SAH Grant program as an important resource for 
our most severely injured eligible individuals. The loss or loss of use 
of extremities and other conditions place special burdens on those 
impacted. Through a combination of their resourcefulness and support 
from the Administration and Congress, this grant allows eligible 
veterans to come to terms with managing their lives in new ways.
    We believe however, that the resources provided by the Government 
are insufficient, particularly in today's depressed economy housing 
market. DAV, through Resolution No. 176, calls on Congress to increase 
the SAH Grant Program. The current $60,000 maximum amount authorized 
for this grant, although it can be used up to three times for the 
aggregate $60,000 maximum, is insufficient to allow such veterans to 
make all necessary adaptations and modifications. Therefore, we support 
legislation that would provide a realistic increase in the grant 
authorized by section 2101(a) of title 38, United States Code.
    DAV also requests Congress to establish a grant program for special 
adaptations to homes that veterans purchase or build to replace initial 
specially adapted homes. Like those of other families today, veterans' 
housing needs tend to change with time and new circumstances. An 
initial home may become too small when the family grows, or become too 
large when children leave home. Changes in the nature of a veteran's 
disability may necessitate a home configured differently and/or changes 
to the special adaptations. These evolving requirements merit a second 
grant to cover the costs of adaptations to a new home.
    Regarding TRA, this pilot program, which is scheduled to expire 
December 31, 2011, allows veterans and active duty servicemembers to 
apply for a grant to adapt the home of a family member where they will 
temporarily reside, provided that family member is a person related to 
the veteran by either blood, marriage, or adoption. It enables veterans 
and servicemembers eligible under the SAH and SHA programs to use up to 
$14,000 and $2,000, respectively, to modify a family member's home. 
Each TRA grant is counted as one of the three grants allowed under 
either SAH or SHA, and also counts toward the maximum allowable $60,000 
under SAH and $12,000 under SHA.
    The Veterans' Housing Opportunity and Benefits Improvement Act of 
2006 expanded the SAH and SHA benefits by increasing the number of 
grants available to eligible individuals from one to three. The Housing 
and Economic Recovery Act of 2008 also increased the maximum allowable 
SAH and SHA grants to $60,000 and $12,000, respectively, adjusted 
annually based on a cost-of-construction index.
    DAV is concerned about the viability of the TRA Grants Program. 
According to a GAO Study of June 15, 2009, titled Veterans Affairs: 
Implementation of Temporary Residence Adaptation Grants, there have 
only been nine TRA Grants processed by the VA, ranging from $3,575 to 
$14,000. The GAO study cites three reasons why the grants have been so 
limited in their utilization.
    First, the pool of eligible veterans and servicemembers is very 
small in that, although 1,800 become eligible for adaptive housing 
assistance each year, these same veterans must also live, or plan to 
live, temporarily with a family member who owns a home. If that same 
veteran planned to live with a friend or a family member in a rental 
property, they would not be eligible. This is likely a small set of 
eligible recipients.
    Second, TRA may not be a suitable option for some who are eligible 
for it. Severely wounded veterans may find transition difficult when 
they return from combat, and may not have definite plans for what they 
will do when they leave the hospital, for such pivotal issues as where 
to live, with whom, and for how long. Uncertainty such as this may 
cause some otherwise eligible individuals to delay or opt out of using 
it.
    Third, TRA counts against the $60,000 maximum amount of adaptive 
housing assistance available in SAH, and $12,000 in the case of SHA. 
Given the high cost of adapting a house, some eligible individuals do 
not choose to use TRA in order to preserve their full SAH or SHA 
benefit. They also said that they were aware of some veterans and 
servicemembers who, in lieu of using TRA to adapt a temporary 
residence, received assistance from nonprofit organizations or from 
other VA programs.
    What is to become of this important program? It seems logical that 
severely injured veterans and servicemembers, who often need daily care 
during an extended convalescence, would benefit from a program that 
allowed them to adapt their temporary surroundings using the TRA Grant 
Program. It is the DAV's view that the primary obstacle to a broader 
utilization of this program is the fact that participation in this 
program negatively impacts the monetary cap of the SAH program.
    DAV calls on Congress to modify the TRA Grant Program for special 
adaptations to homes in which veterans temporarily reside, which are 
owned by a family member. Specifically, Congress should increase the 
allowance from $14,000 to $28,000 for those veterans who have a 
permanent and total service-connected disability as a result of the 
loss or loss of use of both lower extremities, such as to preclude 
locomotion without the aid of braces, crutches, canes, or a wheelchair. 
For those veterans who have a permanent and total service-connected 
disability rating due to blindness in both eyes with 5/200 visual 
acuity or less, and the disability includes the anatomical loss or loss 
of use of both hands, Congress should increase the allowance from 
$2,000 to $5,000.
    The DAV further recommends that the TRA Grant Program be decoupled 
from SAH and SHA monetary caps, and be placed at a level on par with 
those caps. This would provide our veterans and servicemembers in the 
most need with the flexibility necessary to respond to their own 
changing lifestyle requirements given their level of recovery and 
mobility.
    Madame Chairwoman, this concludes my testimony on behalf of DAV. We 
hope you will consider our recommendations. I would be happy to answer 
any questions members of the Subcommittee might have.

                                 <F-dash>
  Prepared Statement of Richard Daley, Associate Legislation Director,
                     Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify today regarding veterans use of the 
Specially Adapted Housing Grant, the Special Housing Adaptation grant 
and the latest housing program, the Temporary Residence Assistance 
grant. We appreciate the efforts of the Subcommittee to address these 
grants provided by the Department of Veterans Affairs to assist the men 
and women who have made the commitment to serve their Nation and have 
become permanently disabled while serving.
                     SPECIAL ADAPTED HOUSING GRANTS
                   SPECIAL HOUSING ADAPTATION GRANTS
    The Department of Veterans Affairs programs being discussed today 
are very important to the members of PVA and other seriously disabled 
veterans. For many years the co-authors of The Independent Budget--
AMVETS, Disabled American Veterans, Paralyzed Veterans of America, and 
Veterans of Foreign Wars have emphasized the need for adequate 
increases in the Specially Adapted Housing grant (SAH) and the Special 
Housing Adaptation grant (SHA) programs. We are very thankful for the 
significant increases in the Specially Adapted Housing grant program 
and Special Housing Adaptation grant program that were enacted in the 
110th Congress. The increases in the value of these grants, along with 
the yearly index adjustment for inflation received the full support of 
this Subcommittee and the full House Committee on Veterans' Affairs. 
Fortunately, improvements were included in H.R. 3221, the ``Housing and 
Economic Recovery Act of 2008'' (P.L. 110-289). PVA has long supported 
increases in these programs as they directly help to improve the lives 
of our members and other disabled veterans.
    PVA along with the other VSO's strongly supported recent 
legislation adjusting the Specially Adapted Housing (SAH) grant to 
$60,000. PVA's architecture program provided the information, based on 
the cost of construction at that time. The grant has been adjusted over 
time in an attempt to keep pace with the rising cost of home 
construction. The grants value has usually lagged behind the cost of 
construction since legislation was required to adjust the value of the 
grant and construction costs consistently outpaced inflation. We were 
pleased that an automatic annual adjustment which reflects the cost-of-
construction index rather than the cost-of-living index was included in 
the ``Housing and Economic Recovery Act'' passed late last year.
    PVA members and other disabled veterans that qualify for these 
programs were also appreciative when Congress increased the number of 
times the grant may be accessed by qualified veterans from one-time use 
to a maximum of three times up to the maximum allowable amount of 
$63,700. In today's mobile society it is common for members of the 
general population, including disabled veterans, to move their place of 
residence several times during their adult years for personal-family 
reasons, health reasons, or employment reasons. The multiple uses 
option of this grant will be well received among the qualified program 
participants today and those disabled veterans of the future.
    The $63,700 currently available using the Specially Adapted Housing 
grant is a significant help for a veteran to make the needed 
modifications to their existing home or newly purchased previously 
owned home. Since it is difficult to find an existing home that can be 
made totally accessible, some veterans choose to design a new house 
incorporating accessibility into the plans. Often financial 
considerations or a convenient living location near family members may 
preclude designing a new home. In those situations the often monumental 
task of making the existing structure accessible must be considered. 
Guidance and information to make modifications for accessibility can be 
found in the VA's newly issued VA pamphlet 26-13, Handbook for Design: 
Specially Adapted Housing for Wheelchair Users, which was also reviewed 
by PVA's Architecture Department before its publication.
    Many existing homes can be modified to improve access for a 
wheelchair user and enhance the function of the home. Some basic 
alterations would include creating an accessible entrance to the home 
including an accessible route to the entrance door, a level platform 
that is large enough for maneuvering during door operation, and 
enlarging entrance doorways. One bathroom would need complete 
renovation including plumbing arrangements if an accessible roll-in 
shower is required. The movement of an existing wall may be necessary 
for a person in a wheelchair to use each fixture of the bathroom, allow 
room for door operation and general circulation in the bathroom. 
Similar construction alterations would be required for the kitchen to 
be accessible and usable, and perhaps alterations to the master 
bedroom. The current grant amount of $63,700 in many situations would 
not pay for the entire project of making a home accessible for a 
wheelchair user. Since the house must be made accessible for the 
veteran, they would have no other option than to pay for remaining 
construction costs from personal savings, arrange a loan from a bank, 
or borrow needed funds from family members. We have been told that more 
often, than not, this is the situation the veteran faces.
    Eventually the disabled veteran will have a home that is usable for 
themselves and their families. Often this will be accomplished with 
donated building supplies, donated labor from friends and family 
members, and support from non-profit organizations. Increasing the 
maximum value of this grant along with the annual index would make the 
transition to civilian life less stressful for the veteran.
                THE TEMPORARY RESIDENCE ADAPTATION GRANT
    PVA supports the Subcommittee's interest the Temporary Residence 
Adaptation grant. The maximum amount of this grant is $14,000. This is 
a small amount of funding for making the necessary modifications for a 
residence to become useable for a disabled veteran who is temporarily 
residing in housing owned by a family member. Unfortunately, that 
amount could be exhausted in the modifications to allow the veteran to 
travel from the edge of the property (accessible route from sidewalk or 
Community Street) into the front door of the home. The $14,000 in most 
cases would get the veteran in the home, but they would be unable to 
use the home.
    However, the current benefit provided by the TRA grant is 
problematic to veterans in need of transitional housing who may wish to 
purchase a home and use adaptive housing assistance at a later date. 
The Temporary Residence Assistance grant is subtracted from the overall 
maximum Specially Adapted Housing grant benefit of $63,700. For 
example: If a disabled veteran receives a TRA grant of $14,000, he/she 
would have only $49,700 available under the SAH grant to adapt or build 
a permanent residence in the future. The current grant is not a 
conducive benefit to disabled veterans who have temporary adaptive 
housing needs and ultimately will have permanent adaptive housing 
needs.
    The GAO reported (GAO-09-637R) on June 15, 2009 to Members of 
Congress that VA has processed nine TRA grants since it was created on 
June 15, 2006 through the period ending February 28, 2009. During the 
same period, VA processed 2,431 SAH and SHA grants. This is a 
substantial difference in the number of applications for each program.
    PVA recommends SAH and TRA become two separate grants due to their 
different objectives. This would exclude the TRA deduction from the 
maximum benefit of SAH and substantially increase the favorability of 
the TRA grant and the number of applicants. This provides a reason for 
veterans to use TRA and still allow them to adapt their own residence 
in the future. Additionally, this is something our severely disabled 
veterans desperately need and would provide a substantial difference in 
their quality of life and create less of a financial hardship on the 
veteran and their family.
    The purpose of this hearing was to review the grants to determine 
if they were ``meeting the needs of our injured veterans.'' With regard 
to the timeliness of the process for making a home accessible using the 
SAH grant or the SHA grant, it would appear that there is room for 
improvement. This home modification process which involves education 
about accessibility along with layers of approval from the VA, and 
construction decisions for the disabled veteran and construction 
approval along with the actual construction, can take 6 months to 1 
year according to PVA's veterans service program. It would be 
disturbing to most Americans to learn that a young man or woman could 
go from average citizen, to an enlisted member of the military, 
trained, deployed to Iraq or Afghanistan, severely injured, returned to 
the U.S. for medical care, transferred to a military hospital or VA 
hospital near their home, in less time than the government can assist 
in making their home accessible for the disabled veteran to live in.
    During this time of conflict with more veterans needing adaptive 
housing to return to their civilian life, perhaps this process should 
be improved to make the next phase of the seriously disabled veteran's 
life, easier than the current process.
    I would like to thank you again for your concern with these 
important programs. Also, thank you for providing the recent increase 
in the SAH and SHA grants along with their index in total funding 
value. This concludes my testimony and I would be pleased to answer any 
questions you may have.

                                 <F-dash>
  Prepared Statement of Thomas Zampieri, Ph.D., Director of Government
                Relations, Blinded Veterans Association

INTRODUCTION
    On behalf of the Blinded Veterans Association (BVA), thank you for 
this opportunity to present BVA's legislative concerns on the 
Department of Veterans Affairs (VA) Specially Adaptive Housing 
programs. Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
members of the Subcommittee on Economic Opportunity, thank you for the 
changes you already have made to these grant programs with Public Law 
110-289 in the Housing and Economic Recovery Act of 2008. BVA is the 
only congressionally chartered Veterans Service Organization 
exclusively dedicated to serving the needs of our Nation's blinded 
veterans and their families for 64 years. BVA does have concerns over 
the existing programs ability though to provide the amounts for 
adaptive housing construction costs necessary to meet the future needs 
of disabled veterans. With recent headlines in Washington Post October 
31st of the growing numbers of wounded in Operation Enduring Freedom 
(OEF) reaching a 1,000 total in the past 3 months, many suffering from 
the same various types of injuries as those evacuated from Iraq in 2007 
we expect there will be many who will be entering the VA health care 
and benefits system in the near future so this hearing today is timely 
to explore what else can be done to assist these severely injured in 
going back home.
    According to DoD Global War on Terrorism Casualties Web site, 
www.SIAPP. DMOC.OSD.Mil/personnel/casualty/castop from October 7, 2001 
to September 26, 2009 there have been 35,850 OIF and 4,982 OEF, wounded 
in action or injured and this number again grows now with the current 
battles in Afghanistan. In addition there is the aging population of 
those disabled veterans from previous wars and conflicts with 
additional age related physical impairments, and the VA must meet their 
needs with these adaptive housing grants in order for them to live 
independently in their homes.
    VA screening TBI studies find that about 60 percent diagnosed with 
TBI have associated visual disorders of diplopia, convergence disorder, 
photophobia, ocular-motor dysfunction, and an inability to interpret 
print. Approximately 4 percent of those veterans with TBI injury result 
in legal blindness or have significant functional visual impairments, 
diagnosed as Post-Trauma Vision Syndrome (PTVS). They often enter VA 
Low Vision Optometry clinics and are prescribed wide variety of 
adaptive visual technology devices and they need additional electrical 
wiring in their homes for both the equipment and for increased 
lighting. One blinded OIF army veteran related his experience in an 
email. ``The SHA grant should be more to help house all of my equipment 
and for lighting. While I received $10,000 in 2007 I actually spent 
$27,000 on a 12x15 office. I needed the room because I did not have the 
space in my existing home for the computer, monitor, CCTV, two 
scanners, printer, magnifiers, and peripheral equipment needed for 
returning to college. It was all great adaptive technology for me, but 
you have to have a place to connect and store it to function 
independently.''
    It is, therefore, important that adaptive housing basic grant 
adjustments keep pace with residential home cost-of-construction index 
for each preceding year for labor and construction materials and BVA 
appreciated that the index was included in the most recent legislative 
changes for these programs by this Committee. If disabled veterans are 
not able to make adaptive changes to their homes, they run the risk of 
falls and injuries that result in expensive emergency room and costly 
hospital admissions.
    Further if accessible housing grants are not sufficient to allow 
disabled veterans to live independently at home, the alternative high 
cost of institutional care in nursing homes will occur. The average 
private room charge for nursing home care was $212 daily, ($77,380 
annual), and for semi-private $191 ($69,715) annually according to 
MetLife 2008 Survey. Even assisted living centers charges of $3,031 
month ($36,372) rose another 2 percent in 2008. BVA would point to 
these more costly alternatives than VA providing sufficient adaptive 
housing grants for a veteran to remain in their home functioning 
independently. The caregivers of these severely injured veterans often 
already give up their employment to stay at home and then must confront 
these additional out of pocket expenses of making modifications to 
adapt their homes adds to the socio-economic pressures on these 
veterans lives if these grants are not sufficient.
CURRENT SPECIALLY ADAPTED HOUSING SERVICES
    Special Home Adaptation Grant (SHA). The Special Home Adaptation 
(SHA) grant, on the other hand, helps service-connected veterans with 
specific mobility problems within the home. The SHA grant is for 
$12,756. The disability must be permanent and total due to:

    <bullet>  Blindness in both eyes with a 5/200 visual acuity or 
less, or
    <bullet>   Anatomical loss or loss of both hands and extremities 
below the elbow.

    Specially Adapted Housing (SAH) The SAH grant, currently $63,780 
used to assist veterans with mobility throughout their homes. It can be 
used for minor or major construction projects. BVA's experience has 
been that very few blinded veterans meet the criteria to obtain the 
larger SAH grant. To be eligible are service-connected veterans with a 
permanent and total disability due to one of the following:

    <bullet>  The total loss, or loss of use, of both lower extremities 
as to preclude locomotion without the aid of braces, crutches, canes, 
or a wheelchair.
    <bullet>  Blindness in both eyes (having only light perception), 
plus a loss or loss of use of one lower extremity.
    <bullet>  The total loss, or loss of use, of one lower extremity 
together with (1) residuals of organic disease or injury, or (2) the 
loss, or loss of use, of one upper extremity which so affects the 
functions of balance or propulsion as to preclude locomotion without 
the aid of braces, crutches, canes, or a wheelchair.
    <bullet>  The loss, or loss of use, of both upper extremities such 
as to preclude use of arms at or above the elbow.

    Temporary Residence Grant (TRA) This grant is now available to 
eligible veterans temporarily residing in a home owned by a family 
member. Under the VA program veterans eligible for an SAH grant would 
be permitted to use up to $14,000 and those veterans eligible for an 
SHA grant would be permitted to use up to $2,000 of the maximum grant 
amounts. BVA has limited experience with how this program meets the 
needs of disabled veterans who may initially return home to live with 
family and they need home modifications. However the recent GAO report 
``Implementation of Temporary Residence Adaptation Grants'' (GAO-09-
637R) should raise concerns about whether this program is assisting 
disabled veterans as intended and if the low participation rate is 
because any amount received is then subtracted from the total amount 
they are eligible for under the SAH grant. But because of current 
restrictions, and the limits of SHA of $2,000 it would offer little 
assistance in any construction renovations considering costs to install 
new ceiling lighting or additional electrical outlets in any older 
home.
RECOMMENDATIONS
    BVA recommends that Congress increase the Specially Adapted Housing 
SAH grant from $63,780 and the Special Home Adaptation (SHA) amount 
from $12,756 when possible up to level to meet the average national 
renovation cost, according to construction experts for adaptive 
accessible housing renovations.
    Continue to provide for future automatic annual adjustments indexed 
to the rise in the residential home cost-of-construction index for the 
preceding year.
    Under the Veterans Housing Opportunity and Benefits Act of 2006, 
Temporary Residence Adaptation (TRA), the grant can be used for changes 
to the residence of a family member with whom a veteran is temporarily 
residing but it is then deducted from total SHA thus limiting the 
amount for the veteran who then purchases their own home. Extending 
this TRA for 2 years and changes in this section to eliminate the 
offset might encourage more utilization of the benefit.
    The current SAH requirement from the Veterans' Housing Opportunity 
and Benefits Improvement Act of 2006 (P.L. 109-233), June 15, 2006 used 
blindness of 5/200 and requirements of loss of use of both hands should 
be modified to permanent service connected blindness of 20/200 or less, 
or loss of peripheral visual fields to 10 degrees or less. The current 
standards now for this restrict helping those returning OIF and OEF 
functionally blinded veterans and some TBI veterans with visual 
impairments requiring assistance and adaptive technology because they 
would never qualify for this current 5/200 standard leaving them with 
no grants.
    VBA now requires an eligible veteran to submit additional 
applications for the auto grant and special adaptive housing grants 
even though their eligibility has already been established at the time 
of the service connected rating, this causes unnecessary reapplications 
and further delays in receiving approval of these auto grants and 
special adaptive housing grants, plus adds to growing claims back log. 
BVA requests congress ensure that Veterans Benefits Administration 
(VBA) automatically provide ``certificates of eligibility'' for auto 
grant and special adaptive housing at the time of the service 
connection rating decision, with instruction booklets on the programs 
be mailed to the veteran at the same time as the notification of 
permanent service connection rating letter.
CONCLUSION
    Chairwoman Herseth Sandlin and Ranking Member Boozman, BVA again 
expresses our thanks for the recent changes that the VA Committee has 
made to these various grant programs in the past couple years. Those 
severely disabled from all previous wars accessing the adaptive housing 
grants programs necessary to live independently in their own homes must 
have adequate grants to meet the costs of renovations. BVA appreciated 
the opportunity to testify today and I will be glad to answer any 
questions now.

                                 <F-dash>
         Statement of John S. Gonsalves, President and Founder,
                          Homes For Our Troops

                           Executive Summary
    Improvements in battlefield medical care have resulted in more 
severely injured troops surviving, for which we are all thankful. But 
their more severe injuries require a wide array of special adaptation 
design, equipment and technologies.
    Homes for Our Troops has been building specially adapted homes for 
5 years, and it incorporates into each home the adaptations necessary 
for each veteran based on the veteran's specific injuries. The VA's 
handbook for designing a specially adapted home is focused on 
wheelchair-bound veterans, but in these current wars we are seeing many 
severe injuries that do not require a wheelchair but nonetheless 
require numerous special adaptations not addressed in the VA's 
handbook.
    We also know that the current grant amount of $60,000 is wholly 
inadequate to acquire an adapted home, and is often not even adequate 
to pay for the significant modifications needed for veterans who come 
back from Iraq and Afghanistan with severe injuries.
Issues to Be Addressed

    1.  The Specially Adapted Housing Grant (SAH Grant) has not kept 
pace with the cost of a home. The grant equaled 64 percent of the cost 
of a new home in 1974, but today it equals just 20 percent of a new 
home cost. The grant amount is wholly inadequate to obtain a new home 
or to even make significant adaptations to an existing home.
    2.  The SAH Grant covers only 50 percent of the cost incurred by 
the veteran.
    3.  The VA's current pamphlet for specially adapted housing design 
does not provide any guidance for adaptations required to adapt homes 
for veterans with ``non-wheelchair'' injuries such as loss of both 
arms, or combinations of injuries such as loss of legs and arms, or 
loss of limbs combined with blindness or deafness.
    4.  There needs to be greater flexibility in home design so that 
each home includes adaptations specifically designed for each veteran's 
specific injuries and unnecessary adaptations are not mandated in order 
to receive the grant.

Recommendations to Address These Issues

    1.  Increase the SAH Grant to at least $187,000 to reflect housing 
cost increases and to make it a meaningful amount that can provide the 
full scope of appropriate adaptations.
    2.  Have the grant cover 100 percent of the cost incurred up to the 
maximum grant amount.
    3.  Revise the VA's Handbook for Design to incorporate the large 
number of new adaptations and technologies now available for not only 
wheelchair-bound veterans but also for veterans with a wide range of 
injuries.
    4.  Create a home adaptations checklist to match available 
adaptations to each veteran's specific injuries so that he or she 
receives all the appropriate adaptations, and is not required to 
include adaptations that are not necessary for their injuries.

                               __________

    Homes For Our Troops' Congressional Testimony, November 19, 2009
    Chairwoman Sandlin and members of the Subcommittee on Economic 
Opportunity, I would like to thank you for the opportunity to speak 
with you today about the Specially Adapted Housing (SAH) Grant provided 
by the Veterans Administration.
    As the president and founder of the non-profit organization Homes 
for Our Troops, my organization and I provide specially adapted homes 
to our most severely injured veterans returning from the wars in Iraq 
and Afghanistan. To date, we have provided specially adapted homes for 
47 servicemen and their families, and we are in the process of 
providing specially adapted homes to 34 more, with our waiting list 
growing daily.
    The services we provide are done at no cost to the veterans we 
serve, and the majority of the services provided thus far have been in 
the form of a newly constructed, specially adapted homes.
Who We Serve
    The veterans we serve are among the most severely injured in the 
wars in Iraq and Afghanistan. Their injuries include amputations, 
paralysis, spinal cord injuries, traumatic brain injuries, blindness, 
and those with severe burns. Many have more than one of those injuries. 
More often than not, they are young, with young families who previously 
lived in military or rented housing that was not adapted to meet their 
current needs.
    The SAH Grant provides a valuable service to our servicemen and 
women. However, the value of that service is diminishing in the face of 
economic changes.
    Also, with medical advances on the battlefield resulting in more 
severely injured veterans surviving, and with technological advances in 
the housing industry now available to adapt homes to address these 
severe disabilities, the design, equipment and technologies included in 
the grant needs to be revisited to ensure that the true potential of 
``Specially Adapted'' is realized.
The Changes We Would Recommend
    As discussed more fully below, we respectfully recommend the 
following changes to the SAH Grant.

    1.  Increase the amount of the grant to reflect higher home prices 
and to meet the cost of supplying the full range of appropriate 
adaptations.
    2.  Remove the limitation that only 50 percent of the cost incurred 
is reimbursed.
    3.  Increase the scope of included adaptations and create a full 
list of available adaptations and the injuries these adaptations 
address so that a checklist is available to match each home design to 
each veteran's specific injuries.

Diminishing Value of the SAH Grant
    Perhaps the best way to describe the greatest impact to the SAH 
Grant's ability to help our severely injured veterans is to summarize 
the diminishing value that the grant contributes to the construction of 
a new home since the end of the Vietnam War.
    In 1974, the SAH grant was equal to 64 percent of the average new 
home sale price. A grant for that percentage of the home cost, combined 
with the relatively low cost of homes in the 1970's, made a substantial 
difference in the ability of disabled servicemen and women to obtain a 
home suited to their disabilities.
    Since 1974, the SAH grant has simply not kept pace with the 
increasing price of homes. Exhibit A provides historical information on 
the SAH grant and new home prices back to 1969, and shows that the 
grant as a percentage of new home prices has decreased from a high of 
64 percent in 1974 to just 20 percent in 2008.
    The average new home price increased 6.1 percent per year since 
that 1974 highpoint, while the grant has increased only 2.6 percent per 
year. If the SAH Grant had grown at the same rate as home prices since 
1974, the grant would now be $188,000, not $60,000.
Inadequacy of the $60,000 limit of the SAH Grant
    The national cost of building a new home averaged $293,000 in 2008. 
The homes needed by these veterans are more expensive than the average 
because they require adaptations and specialized construction that 
increases the cost as compared to a ``basic'' home. Because of this, we 
have averaged about $343,000 for the cost of building new homes that 
are fully specially adapted based on the veteran's injuries and 
disabilities.
    Limiting the grant to $60,000 means that, on average, these young 
men and women will need to borrow $283,000 to purchase a home that 
accommodates the handicaps caused by their severe injuries. Many cannot 
qualify for a loan that size, and so they end up living with family 
members, in apartments that are inappropriate for their condition, in 
transitional housing and, in the worst cases, on the street. For those 
who can obtain a loan, they will have a large financial burden on their 
shoulders for the next 30 years.
    The $60,000 grant is thus wholly inadequate to provide a new 
specially adapted home.
    Even for veterans who own a home, the cost to adapt it is often 
significantly higher than $60,000. As an example, Marine Cpl. Mark 
Byers of New York owned a home, but he lost both an arm and a leg in 
Iraq that required the addition of a master bedroom and bathroom that 
was both wheelchair accessible but also included adaptations to address 
the challenges faced due to his lost arm. Homes for Our Troops put on a 
relatively small addition of 500 square feet of living space that 
included the bedroom, bathroom a roll-in closet, and also with a 
related 500 square feet of unfinished basement expansion, and the cost 
for even this relatively small amount with all the required adaptations 
cost $150,000.
Reimbursement Limit of Only 50 percent of the Incurred Cost
    Another aspect of the SAH Grant that should be changed is the 
requirement that the grant is limited to 50 percent of the cost 
incurred by the veteran. In order for a qualifying veteran to receive 
the full $60,000 SAH Grant, the veteran must show a cost of $120,000 in 
home purchase price or home adaptation costs.
    It should be noted that $120,000 can do little these days to obtain 
and/or modify a home to meet the requirements of the SAH Grant. Over 
and above that, it is concerning to think that we would only reimburse 
50 percent of those costs to that veteran. It would seem more 
appropriate that these veterans should not have to incur a cost since 
the price they have already paid as a result of their life-altering 
injuries cannot be measured in dollars.
Redefining ``Specially Adapted'' and Allowing Flexibility in Home 
        Design
    The VA's Handbook for Design, in its present form, is primarily 
focused on the home adaptations needed for wheelchair accessibility. 
Wheelchair accessibility is of course one important area. However, the 
uniqueness and severity of certain injuries requires that some 
adaptations, currently dictated as mandatory, become more flexible and 
occasionally omitted from the requirements in lieu of other more modern 
and appropriate adaptations specifically chosen for the actual needs of 
the individual veteran.
    For example, the SAH Grant currently dictates specifications that 
mandate grab bars, countertop heights and depths, electrical outlet 
placements, door handle requirements and several other adaptations that 
benefit wheelchair bound individuals with upper body control, but 
provide no benefit to a quadriplegic or to a blinded, upper bi-lateral 
amputee.
    A more preferable alternative to this would be to have a full 
adaptations checklist that would prescribe which adaptation design, 
equipment and technology are needed for differing types of injuries. As 
the veteran goes through rehabilitation and is trying to figure out 
where they will live, the specific requirements of the adaptations 
needed for the home can be known beforehand and can be used to design a 
home that is fully adapted to the veteran's needs.
    Having the scope of work defined beforehand will allow the home to 
be built more quickly and will insure that it contains the best 
available adaptations for each veteran's injuries.
Case Study of Truly ``Special'' Adaptations in One of Our Home Projects
    U.S. Army Specialist Russell ``Kyle'' Burleson was only 22 when he 
was shot in the left cheek by a sniper during a firefight in 2004 in 
Iraq while serving as a top gunner on a HMMWV. Kyle was left a C-2 
quadriplegic on a ventilator and confined to an 800 pound wheelchair 
and the need of a hydraulic lift to lift Kyle out of his chair and his 
bed. Upon release from the Army and the hospital, Kyle, his wife 
Kristy, and their two young children had no place to move to except 
Kyle's mother's 120 year-old, 900 square foot house.
    The house was small and because of its size, Kyle, Kristy and their 
two children lived in one room that used to be his mother's living 
room. Because of the size of Kyle's wheelchair, Kyle was confined to 
that one room and could not move to other rooms in the house. And 
because of the size of the hospital bed, the size of the wheelchair, 
and the size of the other equipment like the hydraulic lift and the 
ventilator, Kyle could not move his chair at all, except to wheel out 
the double-doors they installed, that lead to the front porch of the 
house and a wheelchair ramp.
    Living conditions were very tough for this young family that had 
already sacrificed so much, and because of these conditions, conducting 
some of Kyle's recommended therapies and exercises became too much of a 
burden, and Kyle's health deteriorated.
    To say that this situation is unacceptable is a significant 
understatement.
    Kyle and Kristy could not afford to build their own home, nor was 
the SAH Grant a sufficient monetary contribution to their financial 
resources to allow them to build a home specially adapted to meet his 
many needs. The family lived in those conditions until we built a home 
for them in 2006. Although we conformed to unneeded adaptations like 
grab bars, fixture placements and countertop heights, we also focused 
on other special adaptations necessary for Kyle's situation.
    Because Kyle is confined to a large wheelchair and on a respirator, 
and because he lives in a rural area of Louisiana where tornadoes, 
hurricanes and severe weather often occur and result in power loss, we 
also adapted his house with those concerns in mind.
    To meet those concerns:

    1.  A back-up generator was installed, so that Kyle's ventilator 
would continue to function during extended power outages.
    2.  The walls of the house and the walls of the master bedroom were 
constructed of insulated concrete forms to provide a safe haven and a 
bunker for his family during a tornado or hurricane.
    3.  Simonton Windows, one of our corporate sponsors, donated their 
Stormbreaker Plus, shatter-proof storm resistant windows to protect the 
family from flying debris.
    4.  Knowing that a majority of Kyle's time would be spent in his 
house and basically become ``his world,'' we constructed a large open 
floor plan for ease of movement and greater freedom.

    Had we not constructed a home for Kyle and his family, they would 
still be living in the same conditions, a thought that we find 
intolerable.
                            Closing Summary
    I would like to express my gratitude for the efforts of this 
Committee, the efforts of the Veterans Administration and all who are 
involved in aiding our veterans.
    The SAH Grant is a much needed service that is provided to our 
severely injured veterans, but the amount of the grant is inadequate. 
Also, the implementation of a process to identify the available 
adaptation design, equipment and technologies must be implemented to 
make the home design process more streamlined and thorough.
    Homes for Our Troops will gladly assist the Veterans Administration 
in developing new criteria and technologies for inclusion into the 
requirements of the SAH Grant using the knowledge we have acquired 
building homes over the last 5 years for veterans with a significant 
variety of severe injuries.
    Chairwoman Sandlin and members of the Subcommittee on Economic 
Opportunity, I would again like to thank you for the opportunity to 
speak with you today. I would be happy to answer any questions that you 
might have and provide any additional information that you might need.
                               Exhibit 1
                          Homes For Our Troops
                         Historical Comparison


                       Specially Adapted Housing Grant vs. Average New Home Sales Prices*
----------------------------------------------------------------------------------------------------------------
                                                           Average New   Grant As %      Grant %    Home Price %
                   Year                       SAH Grant    Home Price       Home        Increase      Increase
----------------------------------------------------------------------------------------------------------------
1969                                             12,000        28,000           43%            --            --
----------------------------------------------------------------------------------------------------------------
1972                                             18,000        31,000           58%           50%           11%
----------------------------------------------------------------------------------------------------------------
1974                                             25,000        39,000           64%           39%           26%
----------------------------------------------------------------------------------------------------------------
1978                                             30,000        63,000           48%           20%           62%
----------------------------------------------------------------------------------------------------------------
1981                                             33,000        83,000           40%           10%           32%
----------------------------------------------------------------------------------------------------------------
1984                                             35,000        98,000           36%            6%           18%
----------------------------------------------------------------------------------------------------------------
1988                                             38,000       138,000           28%            9%           41%
----------------------------------------------------------------------------------------------------------------
1998                                             43,000       182,000           24%           13%           32%
----------------------------------------------------------------------------------------------------------------
2001                                             48,000       213,000           23%           12%           17%
----------------------------------------------------------------------------------------------------------------
2003                                             50,000       246,000           20%            4%           15%
----------------------------------------------------------------------------------------------------------------
2008                                             60,000       293,000           20%           20%           19%----------------------------------------------------------------------------------------------------------------
*This table takes each year there was a change in amount of the SAH grant and compares it to the average new
  home sales price for that year. Percent Increase from 1969 to 2008:
  SAH Grant 400 percent
  Home Price 946 percent The SAH Grant would need to be increased from $60,000 to $187,000 to maintain the highest ratio of grant amount
  vs. home price of 64 percent in 1974. Note: Home Price data was derived from U.S. Census Bureau historical reports.


                                 <F-dash>
     Statement of Mark Bologna, Director of Loan Guaranty Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs

    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, I appreciate the opportunity to appear before you today 
to discuss VA's Specially Adapted Housing (SAH) program.
Specially Adapted Housing Grant Program
    The SAH grants for severely disabled Veterans are among the most 
important of the benefits that the Loan Guaranty Service provides. 
Eligible Veterans may use the grant from VA to purchase or construct an 
adapted home or adapt an existing one to meet their needs. Through the 
SAH Grant Program, thousands of Veterans have been afforded a level of 
independent living they may not have otherwise enjoyed.
Types of Grants
    VA administers three types of grants under the SAH program. To be 
eligible for a grant, a Veteran or servicemember must be entitled to VA 
compensation benefits for permanent and total service-connected 
disabilities. Amounts of assistance are subject to aggregate maximums, 
and no individual may receive more than three grants of assistance 
under the SAH program.

    <bullet>  The Adaptive Housing (AH) grant is available to 
individuals whose disabilities are due to blindness in both eyes, the 
anatomical loss or loss of use of both hands, or severe burns. With the 
enactment of Public Law 110-289, the maximum amount of assistance is 
now tied to an annual cost-of-construction index, and was recently 
increased by 6.3 percent from $12,000 to $12,756. The AH grant may be 
used to purchase, construct, or adapt a home owned (or to be owned) by 
the eligible individual or a member of his or her family.
    <bullet>  The Paraplegic Housing (PH) grant is available to 
severely disabled individuals who are entitled to assistance due to the 
loss (or loss of use) of both lower extremities, or the loss (or loss 
of use) of both upper extremities. The law also provides eligibility 
based on other types of injuries, such as blindness and loss (or loss 
of use) of one lower extremity, or severe burns. The maximum amount of 
assistance for this grant is also adjusted annually, and was increased 
from $60,000 to $63,780 on October 1st. Unlike AH grants, which may be 
used to adapt the home of a family member, PH grants are only available 
to purchase, construct, or adapt a home owned (or to be owned) by the 
eligible individual.
    <bullet>  A Temporary Residence Adaptation (TRA) grant is available 
to an eligible individual who is temporarily residing with a family 
member, and is otherwise eligible for a PH or AH grant. An individual 
eligible for a PH grant may receive up to $14,000; an individual 
eligible for an AH grant may receive up to $2,000. If an eligible 
individual uses a TRA grant, the amount is deducted from the aggregate 
amount of assistance available for PH or AH grants. Use of a TRA grant 
also counts against the individual's limit of three grants. Unlike the 
PH and AH grants, VA does not have the authority to adjust these 
amounts to keep pace with increases in the cost of construction. As a 
result, the dollar amount of TRA grants will constitute a smaller and 
smaller percentage of the aggregate amount of assistance over time.

    I've included with this statement a table that summarizes the 
above-described grants, including the maximum amounts available and the 
qualifications for each.
Current Outlook
    Since the inception of the SAH program in 1948, VA has provided 
over 30,000 grants, totaling $805 million. Between fiscal years 1989 
and 2006, VA provided an average of 500 grants per year to severely 
disabled veterans. VA approved 724 grants in fiscal year 2007, 1,018 
grants in fiscal year 2008, and 1,270 grants in fiscal year 2009, an 
increase of more than 140 percent from 2006 to 2009. VA expects this 
upward trend to continue.
Assessment of Adequacies
    As discussed in VA's Report to Congress published on August 28, 
2009, Congress has made a number of legislative changes to this program 
in recent years, including: increasing the AH and PH grant amounts; 
providing authority to align the grant amount to an index; authorizing 
grants outside of the United States; creating the TRA grant; and 
extending eligibility for TRA grants to active-duty servicemembers. 
Most notably, Congress changed the program from a one-time to a three-
time use program. This change has allowed individuals to make 
additional adaptations to their homes or upgrade existing adaptations. 
If they move to other homes, and have remaining eligibility, they may 
now use the program to adapt the new homes as well. These legislative 
changes have significantly improved the benefits available to severely 
injured Veterans and servicemembers and have increased the overall 
flexibility of the SAH program.
    However, as noted in the August report, there are statutory 
inadequacies that may prevent a number of individuals from receiving 
much-needed SAH assistance. Today I will highlight just two. According 
to VA's 2007 Survey of SAH Grantees, most AH grant recipients indicated 
that the grant amount was not enough to cover the full cost of 
adaptations. As a result, they may have incurred significant out-of-
pocket expenses or had to rely on the generosity of others to adapt 
their homes. In other cases, Veterans or servicemembers who have 
service-connected conditions that may benefit from home adaptations are 
not eligible due to the fact that the law specifies a finite list of 
qualifying disabilities for these programs.
Extension of Temporary Residence Adaptation Grants
    Congress created the TRA grant in June 2006, and extended this 
benefit to active-duty servicemembers in July 2008. To date, there has 
been limited usage of TRA grants. Since the inception of the TRA grant, 
VA has fully disbursed 12 grants and has approved an additional 5 for 
processing. There are several factors that may explain why so few 
eligible individuals have chosen to use this valuable benefit. First, 
GAO reported that several Veterans Service Organizations believed the 
number of Veterans and servicemembers whose living situation is 
appropriate for TRA could be very small. Second, severely injured 
servicemembers often face a difficult transition when returning from 
combat and may not be ready to make plans for their living situation. 
Consequently, these eligible individuals may delay or opt out of using 
the TRA benefit. Third, the TRA grant also has limitations for an 
individual who is residing with a family member, but ultimately plans 
to purchase, construct, or adapt his or her own home. As previously 
noted, when an eligible individual uses a TRA grant, his or her 
opportunity to receive future assistance is limited in two ways. The 
amount of the TRA grant is deducted from the aggregate amount of 
assistance available to the individual for future AH or PH grants. 
Additionally, use of a TRA grant counts as one of the three total 
grants of assistance available to an eligible individual under Chapter 
21. As a result, an individual is advised to consider his or her future 
plans to use an AH or PH grant before deciding whether to use a TRA 
grant. In addition, the GAO report noted comments from Veterans Service 
Organizations that additional outreach to servicemembers and Veterans 
about the TRA benefit could potentially increase its use. Currently, VA 
contacts all OEF/OIF servicemembers within 48 hours of eligibility 
determination to explain the program. Additionally, VA contacts all 
Veterans who have previously applied for but not used SAH benefits at 
least once a year to remind them of their eligibility and to provide 
updated information about the benefits available to them. We will 
continue to look for opportunities to increase use of this benefit.
Handbook for Design
    The Subcommittee also requested information about VA's Handbook for 
Design: Specially Adapted Housing, VA Pamphlet 26-13. VA worked in 
conjunction with a graphics designer to update the pamphlet. 
Additionally, VA requested advice from Carol Paredo Lopez, National 
Architecture Director for the Paralyzed Veterans of America, on the 
revisions. VA published the pamphlet on its Web site in October, and 
will work with the industry to regularly update the guidance offered in 
this pamphlet.
    Madam Chairwoman, this concludes my testimony. I appreciate the 
opportunity to be here today, and I look forward to answering your 
questions.


                                                                Appendix--Program Summary
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Living                   Number of Grant   Grant Amount & Cost-of-
                       Grant Type                               Eligibility          Situation     Ownership        Usages         construction Index
--------------------------------------------------------------------------------------------------------------------------------------------------------
AH Grant                                                   <bullet> Blindness in     Permanent    Home owned                        $12,756 for FY 2010
                                                            both eyes with 5/200                 by eligible
                                                           visual acuity or less                  individual                        (adjusted annually)
                                                         <bullet> Anatomical loss                  OR family
                                                          or loss of use of both                      member
                                                                           hands                                 Maximum of 3
                                                         <bullet> Certain severe                                         uses
                                                                           burns
--------------------------------------------------------------------------------------------------------------                         <bullet> Loss of                                                                                                                                mobility<bullet> Loss or
                                                                                                                                    loss of use of both
                                                                                                                                         lower or upper
                                                                                                                                            extremities
                                                                                                                                              <bullet> Certain severe
                                                                                                                                                  burns
--------------------------------------------------------------------------------------------------------------------------------------------------------
TRA Grant                                                Based on eligibility for    Temporary    Home owned     Maximum of 1    $2,000 for AH eligible
                                                                  PH or AH grant                   by family              use
                                                                                                      member                    $14,000 for PH eligible
                                                                                                               (counts against
                                                                                                                    aggregate   (not adjusted annually)
                                                                                                                    amount of
                                                                                                               assistance and
                                                                                                                   three-time
                                                                                                                 usage limit)
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                 <F-dash>
     Statement of Noel C. Koch, Deputy Under Secretary of Defense,
 Wounded Warrior Care and Transition Policy, U.S. Department of Defense

    Ms. Chairwoman, Ranking Member Boozman, and members of the 
Subcommittee, thank you for the opportunity to provide written 
testimony about the VA's home adaptation program for Wounded Warriors.
    The Department of Defense is responsible for any modifications to 
DoD-owned family housing, unaccompanied housing, and lodging to meet 
the medical needs of Wounded Warrior occupants. In the case of 
privatized housing or leased housing, DoD actively engages the landlord 
to see if the medical needs of a Wounded Warrior tenant can be met, and 
if not, DoD will relocate the member to housing that meets their 
medical needs. Standards for such ``medical hold housing'' were issued 
by Deputy Secretary of Defense Memorandum dated September 18, 2007. 
Depending on the medical condition of the member, the housing may need 
to comply with accessibility standards, as specified in the Memorandum. 
Accessibility features could include features such as ramps, wider 
doors, lower height counters and sinks, roll-in showers, grab bars, 
emergency pull switches, door handles in lieu of knobs, modifications 
to the fire and smoke detector systems, and special furniture. 
Additional features, such as special carpeting and furnishings 
patterns, could be necessary for members with Traumatic Brain Injuries 
and/or Post Traumatic Stress Disorder. Also, special toilet 
modifications may be necessary for members with hand or arm injuries.
    One way the Military Services are made aware of a recovering 
servicemember's needs is through the development of a Comprehensive 
Recovery Plan. This plan is created by the Recovering Servicemember's 
Recovery Care Coordinator and Recovery Team. The Comprehensive Recovery 
Plan is the Recovering Servicemember's roadmap for recovery, 
rehabilitation and return to duty or reintegration into the community. 
The needs of the Servicemember and family are incorporated as goals 
into the Recovery Plan. If one of the identified needs is adaptive 
housing the Recovery Care Coordinator obtains information on adaptive 
housing through the National Resource Directory, the Department of 
Veterans Affairs (VA), as well as programs sponsored by Veteran Service 
Organizations and non-profits. Additionally, to meet the housing needs 
of our Wounded Warriors, the Marine Corps has modified base housing at 
both Wounded Warrior Battalion East (Camp Lejeune, NC) and Wounded 
Warrior Battalion West (Camp Pendleton, CA).
    The National Resource Directory (NRD) Web site (www.national 
resourcedirectory.gov) features over one hundred links to information 
on homes that are modified to be accessible to people who are injured 
or disabled. The links on the NRD direct users to adaptive housing 
information from the Departments of Defense and Veterans Affairs as 
well as programs sponsored by Veteran Service Organizations and non-
profit organizations. To strengthen the role of the Recovery Care 
Coordinators in Servicemembers' transition, these Care Coordinators 
receive standardized training addressing sixteen areas of need to 
include adaptive housing. Practical exercises on developing goals and 
addressing needs are conducted during the training, which includes 
scenarios involving acquiring adaptive housing for the Recovering 
Servicemember. Authority to modify or adapt a Wounded Warrior's 
privately owned house is under the jurisdiction of VA.
    Madam Chairwoman, I appreciate the opportunity to explain what the 
Department of Defense is doing to support housing adaptability with our 
Wounded Warriors.

                                 <F-dash>
  Statement of John S. Lewandowski, President/Chief Executive Officer,
                 Disabled Veterans Committee on Housing

    Chairwoman Sandlin, Honorable John Boozman and Members of the 
Subcommittee on Economic Opportunity, I would like to thank you for the 
opportunity to submit testimony to the Committee. I would be happy to 
answer any questions you might have and provide additional information 
you may need.
                        Organization Background
    I started Disabled Veterans Committee on Housing--a 501(c) (3) 
nonprofit organization--program because there are so many disabled 
veterans needing accessible homes who do not know how to achieve this 
goal. I am a 100 percent disabled Veteran with loss of use of lower 
extremities. All members of the DVCH Board of Directors are disabled 
veterans. Their knowledge and experience are of great value to the DVCH 
and those we serve.
    The principal goal of the DVCH is assisting, in any way we can, all 
disabled veterans who have served our country with pride and honor but 
returned with a debilitating injury such as the loss of the use of 
lower and upper extremities, are paraplegic or quadriplegic, or suffer 
from TBI (Traumatic Brain Injury). We can only imagine what they suffer 
each and every day. We help improve the quality of their lives by 
building them the home that meets the requirements associated with 
their disability. The DVCH Web site, www.DVCHVets.org, provides in-
depth information on a wide range of housing and other veteran's 
subjects.
    The DVCH mission is to--``Provide the highest quality specially 
adapted home at affordable prices for those who require a greater level 
of access and mobility.''
    The DVCH believes that significantly increasing the inventory of 
accessible housing is dependent on expanding the public and private-
sector partnerships it has formed in Virginia and will expand to other 
States in 2010. The DVCH has partnered with a wide range of private 
sector firms (banks, builders, real estate firms, developers, building 
suppliers, etc.) who have proven track records of providing the 
services needed by veterans so they can obtain the housing that is both 
needed and deserved. Our builders have been approved by the Veterans 
Affairs Special Adapted Housing Section. This is extremely important as 
these companies have the knowledge to successfully comply with IAW 
Special Adapted Housing Policies and Procedures.
    The DVCH carries out a comprehensive program aimed at providing new 
affordable and accessible housing for disabled veterans throughout 
Virginia. This is an extremely important initiative as there are so 
many disabled veterans who qualify for VA housing grants and can obtain 
financing but are not building new accessible homes because:

    <bullet>  They cannot identify a builder that specializes in this 
type of housing;
    <bullet>  Need help in deciding on the floor plan including the 
special adapted features they need to accommodate their disability;
    <bullet>  Do not know how to obtain financing including grants and 
other forms of assistance they are entitled to; and
    <bullet>  Need assistance in locating and purchasing affordable 
land.

    The DVCH ``ONE STOP SHOP'' program was developed so disabled 
veterans can become as independent as possible in their home through a 
remodel of their present living space or, if that is not possible, then 
seeking grants so they can move into a new home built to their specific 
needs. If the veteran's injury is service connected they may qualify 
for a special adapted housing grant which can dramatically to reduce 
the cost of the home remodel or construction of a new home. The DVCH 
also works with local Department of Veterans Affairs medical officials 
to determine what medical equipment can be provided to the veteran at 
NO COST TO THEM.
    DVCH staff work with each disabled veteran to determine and address 
his/her specific mobility needs. We offer clients a full range of 
services to ensure that designing, financing, lot selection and other 
aspects of the new home process are as simply and efficiently carried 
out as possible. Our project team also assists veterans by completing 
loan applications, with assistance in credit repair, and in applying 
for government and other disability grants. We typically meet directly 
with the client in his or her home or wherever is most convenient. All 
homes offer a wide range of accessibility options, and can be modified 
to meet their specific medical needs.
               ``Adapted Housing Grants'' Recommendations

    1.  The current grant amount of $60,000 is wholly inadequate.

          The DVCH enthusiastically supports the recommendations 
submitted by the Homes for Our Troops.

          We concur that the current grant ceiling amount of $60,000 is 
wholly inadequate to cover the current costs of acquiring a SAH and as 
Mr. Gonslaves stated in his testimony ``. . . often (the grant is) not 
even adequate to pay for the significant modifications needed for 
veterans who come back from Iraq and Afghanistan with severe 
injuries.''

    2.  The draws which are currently 3 for the life of the veteran 
needs to be increased to 6 for the life of the veteran.

          The reasoning is that veterans continually need to make 
changes in their homes as their medical condition changes. Then there 
are the financial needs associated with periodic replacement and/or 
updating that a home requires so it is properly maintained. If the draw 
number is not increase this means that many veterans will do without 
the housing that meets their medical needs.

    3.  There is a need for more trained personnel in the Specially 
Adapted Housing Branch of the Regional Offices. As of today, it can 
take anywhere from 8 weeks to 8 months to process a veterans 
application. Such a lengthy delay is an injustice to the veteran who 
has given so much to our country. Can't we better serve them by cutting 
down these long wait times?

    4.  There is a need to establish a branch within the Department of 
Veterans Affairs where service-connected injury/illness veterans can 
obtain approval for construction funding to build their homes and not 
have to go through the lengthy process--many times unsuccessfully--with 
private lenders to gain this type of financing.

          Those who have service-connected injuries/illness are paid 
through the Veterans Compensation Board and Social Security. The Board 
can help the veteran with construction loans, end loans, closing costs, 
escrow accounts, etc. ``We need to take care of the veteran through a 
Federal agency program. The recommended process will eliminate a great 
amount of red tape and delays that the veteran now has to go through. 
Payments could be deducted directly from the veteran's compensation. In 
part, this system could reduce or eliminate banks foreclosing on 
veterans properties''.

    5.  The standard items allowed according to ADA specification 
should be changed to add items as ``required'' which are now listed as 
``optional,'' such as the following:

       <bullet>  Backup generators
       <bullet>  Swing away hinges on all doors (Internal & External) 
for the veteran access

    6.  Many disabled veterans are too young to have homes of their own 
but require a caretaker on a 24/7 basis. Usually their family takes on 
this burden yet amount maximum allowed adaptive housing grant is only 
$12,000. This amount needs to be increase 10 times as to retrofit a 
home is hugely expensive. It is important the veterans feel their 
government does care and therefore we ask the Committee to take action 
to increase the grant amount substantially this session of Congress.

                             Final Comment
    Disabled Veterans Committee on Housing could assist many more 
veterans with our program if the above recommendations are implemented. 
We receive countless calls from veterans who want to know how to 
proceed on obtaining an accessible home. Sadly in so many cases, 
because of existing laws and policies, we are powerless to help the 
veteran achieve his or her goals. We can work hand in hand with the 
Special Adapted Housing Branches to develop comprehensive 
recommendations and goals to meet the accessibility and affordability 
requirements of our veterans.
    The DVCH salutes the Army Wounded Warrior, Soldier Family 
Assistance Center (SFAC), the Warrior Transition Programs and the many 
other organizations that veterans can turn to for assistance in 
obtaining an accessible and affordable home. We know that many more 
soldiers, seamen, airmen and marines have been able to obtain the 
housing they need as a result of the encouragement, expertise and 
services these organizations offer.
    Thank you Chairwoman Sandlin, this concludes our testimony to the 
Subcommittee and I look forward to any questions you may have.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                  November 20, 2009

Mr. Carl Blake
National Legislative Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, DC 20006

Dear Mr. Blake:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Adaptive Housing Grants on November 19, 2009. Please answer 
the enclosed hearing questions by no later than Monday, December 21, 
2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely

                                          Stephanie Herseth Sandlin
                                                           Chairman
JL/ot

                               __________

                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                    January 8, 2010

Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, DC 20515

Dear Chairwoman Herseth Sandlin:

    Enclosed is our response to the additional questions you submitted 
from the hearing on November 19, 2009, on Adaptive Housing Grants.
    PVA would like to thank you for addressing this issue since it is 
an important benefit to our members. We look forward to working with 
you on this issue and other veterans' issues in the future.

            Sincerely

                                                   Richard C. Daley
                                     Associate Legislation Director

                               __________

    Question 1: One of your concerns you mentioned in your testimony is 
that the time it takes for a veteran to be approved for a grant, 
construction approval, and actual construction, can take up to 1 year. 
How can we streamline this process?
    Answer: The first barrier may be the lack of communication between 
the Department of Defense (DoD) and the VA.
Permanently Disabled Servicemember Must Receive Memorandum Rating
    The DoD should inform the VA of a new injury that appears to be 
totally disabling and permanent. Apparently this does not happen. With 
the assumption that the servicemember will never return to active duty, 
sustaining injuries such as a spinal cord injury, the VA can issue a 
Memorandum Rating while the servicemember is still active military in 
the DoD hospital. Having received that rating from the VA and DoD, the 
grant can be submitted to start the process. The 110th Congress passed 
legislation (P.L. 110-289) that allows the active duty servicemember to 
qualify for the SAH grant. The intention was to accelerate the process 
of modifying a home for the veteran to live in after medical release 
from the VA or DoD hospital.
    If the servicemember is injured in the current conflict, that 
individual will have a VA Gulf War on Terror (GWOT) Coordinator 
assigned to their case to insure that their rehabilitation and benefits 
are attended to. The non Gulf War injured servicemember would continue 
receiving medical care in the DoD, or VA facility without individual 
follow-up and oversight. Often this medical care is provided for an 
extended period of time with the DoD personnel not realizing that the 
individual could be discharged from active duty to receive their 
continued care and applicable benefits from the VA.
    In some situations because of the nature of the injury or the 
circumstances involved in the incident an investigation is necessary to 
determine if the injury was in the line of duty. A period of 60 days is 
allowed for this investigation. This investigation is often continually 
extended for a 30-day period upon request. There is no limit on the 
number of additional 30-day extensions requested for an investigation. 
An investigation of an accident involving injury is not a priority for 
the military. The officer assigned to the investigation will be 
responsible for all of their regular assigned military duties along 
with this investigation. Because of the lack of attention given to the 
investigation of the injury, or delays in obtaining necessary 
information from other sources, is common for this process to extend 
for 6 months to a year.
    The DoD should place a higher priority on the investigation process 
and insure the injured servicemember is rated by the VA to allow them 
to be discharged and receive VA benefits.
Expedite Construction Process by Using VA Experienced Builders
    When the servicemember is approved for the grant, it is important 
to find a builder/contractor that is familiar with the VA requirements 
for accessibility and their requirements for documentation which would 
include receiving payment from the VA. This process can be frustrating 
for a business that has never contracted with the Federal Government 
and specifically with the VA in the past. In some situations the 
disabled veteran may select a convenient local builder, or an 
acquaintance that is a contractor. Although they may feel comfortable 
with their selection, this construction project with the VA involves 
more that a typical residential construction job. Not only must this 
contractor know local and State building codes and standards and have 
knowledge of accessibility, this contractor must comply with all of 
VA's requirements.
    The VA could provide a list of contractors that have successfully 
completed residential construction work for the VA. This would not be a 
recommendation, only a list of past builders, within that area, that 
have completed work for the VA.
    The VA should develop a relationship with the National Association 
of Home Builders (NAHB) to educate their members on the VA's 
requirements for accessibility. The VA, along with the NAHB could offer 
a workshop for contractors who would be interested in learning their 
requirements. This could be offered in each region. The workshop would 
focus on the VA's requirements for accessibility in residential design 
and construction and VA's application process and other required 
documents. Upon completion of this workshop, those contractors will be 
acknowledged by the VA as having completed this training.
    In the past, some PVA Chapters have used funding from the U.S. 
Department of Housing and Urban Development (HUD) to build wheelchair 
accessible apartments. These developments would offer completely 
accessible one and two bedroom apartments for low income disabled 
veterans and other members of a community. In each situation the 
chapter would follow the advice of the HUD Regional Office and use an 
experienced consultant. A HUD experienced consultant would be a person 
very knowledgeable of the HUD requirements and often a consultant who 
had previously worked for HUD. Likewise, the contractor selected to 
build the apartments would have had HUD experience. Although these 
projects would be small by commercial construction standards, 
$1,000,000 to $2,000,000 projects, they would be very frustrating, if 
not impossible to successfully complete without a consultant and a HUD 
experienced builder. Having experience with contracting for 
construction projects with the Federal Government is essential.
Offer Financial Incentive for On-Time Performance
    As Congress considers increasing the amount of the SAH grant, 
perhaps the VA could allow for a dollar amount ``bonus'' for completion 
of the project on time, and an additional bonus for completion of the 
project before the contracted date. This would give an incentive to the 
contractor to keep the project on schedule. The contractor must take 
into consideration that some of the construction components they will 
need are not available locally. Items such as a molded fiberglass roll-
in shower stall, or a stair-lift or residential elevator must be 
ordered in advance and on occasion, will be custom made. These factors 
must be considered when projecting a completion date. Having built for 
accessible standards in the past an experienced contractor will know 
this.
    Other Federal agencies, such as DoD, allow for a financial bonus 
for early completion of projects. This incentive for the contractor to 
finish the project within the expected time will also help to reduce 
medical costs for the VA by avoiding an extended hospital stay. In 
addition, returning home to civilian life is best for the veteran.
Increase VA Staff Level to Address Backlog
    PVAs' service officers have been informed by veterans in various 
regions of the country that there is currently a backlog of SAH grants 
waiting for VA processing. The VA testified in this hearing (November 
19, 2009) that they have seen an increase of SAH grants of more that 
140 percent from 2006 to 2009. They also testified they expect this 
upward trend to continue. The message is clear; they must train more 
personnel to work on housing grants. The VA should address this problem 
before another Subcommittee hearing is requested to ``Investigate the 
Backlog.''
    Question 2: During the testimony, you informed the Subcommittee 
that the current amount of the adaptive housing grants does not cover 
actual adaptation cost. Please provide the Subcommittee the average 
out-of-pocket cost from the disabled veteran.
    Answer: The purpose of the grant is twofold. Congress provided this 
grant to assist the severely disabled veteran when purchasing a home to 
live in. Congress also intended this grant to pay the costs associated 
with making a home accessible and useable for that veteran. This can 
include widening doorways, installing ramps or elevators, enlarging the 
bathroom, or building an additional new accessible bathroom, making 
kitchen modifications or enlargements, purchasing accessible 
appliances, and creating an accessible dining area. Some of the Iraq 
and Afghanistan injured veterans will require additional environmental 
controls in their homes. A paraplegic veteran with severe burns may 
require additional air filtration and air-conditioning systems to 
maintain the exact temperature control throughout the home. This type 
of accommodation to a home will also require an emergency generator 
system to insure these medical necessary appliances remain functioning 
at all times.
    The out of pocket cost is difficult to calculate. Every disability 
is unique and requires specific accommodations and modifications to 
allow the veteran to maximize their life. When a veteran is building a 
new home, the site is appropriately selected and the accessibility can 
be designed and built into the home. A new home may not be economically 
feasible for a veteran that may choose to live in the home they 
previously owned or buy an existing home. If that home is not 
accessible from the ground level, an elevator or ramp will be required 
to enter the home. This cost along with the previously discussed 
modifications far exceeds the current $63,780 provided by the grant.
    The cost for a veteran to purchase or modify a home to meet their 
accessibility and medical needs varies widely throughout the Nation. 
The SAH grant should take that into consideration. This housing-
construction cost variation differs widely from standard metropolitan 
areas more so than by basic regions of the country. It can vary 
significantly within one region or State. For an example use the State 
of Illinois which has 750,000 veterans living within it. For a disabled 
veteran to buy, build, or modify a home in the Chicago, Illinois 
metropolitan area requires significantly more money that it would 175 
miles south in the Capitol of Springfield, Illinois.
    Another factor that must be considered is in the northern half of 
the United States the disabled veteran's accessible van will require a 
carport or a garage to protect it from any snow and ice accumulation 
which could affect the sophisticated door and lift equipment and the 
hydraulic lowering and leveling of the van body for successful entry. 
The cost for a garage which would insure a veteran could use their van 
during winter months in South Dakota must be factored into that grant.
    In the hearing Mr. John Gonsalves, President of Homes for Our 
Troops, presented helpful information. His perspective was from a 
builder that is knowledgeable of current construction costs. He 
reported that the average new home price is approximately $293,000 
(2008). The current SAH grant equals approximately 20 percent of that 
value. With the understanding that this SAH grant of $63,870 is 
inadequate, a substantial increase in the total dollar amount for the 
grant would be appropriate. Unlike some benefits, a qualified veteran 
will not always use the maximum allowed to modify their home. A veteran 
realizes that making major modifications in a home does not increase 
the value of that home, in most cases reduces the value of their 
largest asset. Some qualified veterans have never used this grant, 
perhaps for that reason. When a disabled veteran decides to make their 
home useable for themselves and their families, the burden should not 
be on the veteran. Congress should restore the grant amount to the 
equivalent percentage of the cost of a new house that would be equal to 
the rate when the SAH grant was originally enacted.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                  November 20, 2009

Mr. Tom Miller
Executive Director
Blinded Veterans Association
477 H Street, NW
Washington, DC 20001

Dear Mr. Miller:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Adaptive Housing Grants on November 19, 2009. Please answer 
the enclosed hearing questions by no later than Monday, December 21, 
2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely

                                          Stephanie Herseth Sandlin
                                                           Chairman
JL/ot

                               __________

                                       Blinded Veterans Association
                                                    Washington, DC.
                                                   December 1, 2009
The Honorable Stephanie Herseth Sandlin
Chair, VA
Subcommittee on Economic Opportunity
335 Cannon House Building
Washington, DC 20515
                                         Congressman John Boozman
                                         Ranking Member, VA
                                         Subcommittee on Economic 
    Opportunity
                                         333 Cannon House Building
                                         Washington, DC 20515

Dear Chair Herseth Sandlin, Ranking Member Boozman,

    The Blinded Veterans Association appreciates the chance to provide 
responses to your Committee follow up questions at the VA Subcommittee 
Economic Opportunity hearing held on Thursday, November 19, 2009. Your 
question pertained to adaptive housing program benefits for veterans 
and contained two parts: 1) What unique needs does a visually impaired 
veteran have that other service disabled veterans may not, and 2) How 
should the Handbook for Design: Specially Adapted Housing, VA Pamphlet 
26-13 be updated? Because of Congressman Boozman's interest in the 
testimony on visual impairments BVA wanted to share the responses.
    In my testimony, I indicated that BVA supports increasing the 
amount VA SAH and SHA grants provide for eligible disabled veterans for 
adaptive housing changes so veterans are able to live independently. We 
realize that budgetary issues impact this process, but the costs of 
long term nursing care as alternative to one time housing construction 
grant should be carefully considered in moving forward. For the 
returning OIF and OEF veterans with Traumatic Brain Injury (TBI) and 
with severe penetrating eye injuries with visual complications, the 
current policy restricts them with the standard of 5/200 and prevents 
approval of any grants which is a real hardship. Current American 
Academy Ophthalmology AAO and American Optometric Association AOA use 
ICD codes for describing visual impairments to define legal blindness 
as 20/200 or less, or those with 20 degrees of visual field or less, 
and is same standard that all 50 States use and Social Security 
Administration determinations for blindness.
DISEASE DEFINITION
    Low vision describes a level of visual impairment characterized by 
useful residual vision that is less than normal. It is not a single 
disease condition but may result from many different ophthalmologic and 
neurological disorders and may cover a wide range of visual 
impairments. It is most commonly described in terms of remaining visual 
acuity and visual field. The ICD-9-CM divides low vision into five 
categories.
    Moderate visual impairment: best-corrected visual acuity is less 
than 20/60 (including 20/70) to 20/160.
    Severe visual impairment: best-corrected visual acuity is less than 
20/160 (including 20/200) to 20/400, or the visual field diameter is 20 
degrees or less (largest field diameter for Goldmann isopter III4e, 3/
100 white test object, or equivalent).
    Profound visual impairment: best-corrected visual acuity is less 
than 20/400 (including 20/500) to 20/1000, or the visual field diameter 
is 10 degrees or less (largest field diameter for Goldman isopter 
III4e, 3/100 white test object, or equivalent). Total blindness is no 
light perception (LP absent).
    Severe visual impairment in both eyes is the minimum requirement to 
be considered legally blind, which has traditionally determined SSDI or 
other disability benefits in the United States. Individuals with at 
least severe visual impairment therefore qualify as an extra dependent 
for Federal income tax purposes and are entitled to other benefits that 
vary from State to State. The terms ``severe visual impairment'' and 
``profound visual impairment'' are much preferred to ``legal 
blindness'' because they are far more descriptive, indicating 
accurately that some useful vision remains. For rehabilitation 
services, the term ``blindness'' should be reserved for total vision 
loss.
    In response to the Pamphlet for Design Specially Adapted Housing, 
attached is some common construction recommendations used. BVA has 
sought change in VHA for more screening of TBI for vision dysfunction 
as it relates to diagnosis, treatment, and rehabilitation of these 
veterans. Veterans with visual impairments do not require the wide 
doorways and common physical structure changes for wheel chairs that 
spinal cord injured require. Often what is needed is different lighting 
in rooms, hallways, stair wells, and outside entrances, with additional 
electrical outlets and counter top space for adaptive technology 
devices. Contrast in flooring and with different color patterns help 
visually impaired veterans in safer mobility. Contrast sensitivity 
refers to the ability to detect differences between light and dark 
areas; therefore, if you are an individual with low vision, increasing 
the contrast between an object and its background will generally make 
the object more visible. Enhancing contrast is one of the simplest, 
least expensive, and most effective home modifications you can 
implement.
    BVA would appreciate your continued strong leadership in making 
positive changes for our Nations' disabled veterans. Changes in this 
program for blinded or visually impaired disabled veterans would 
improve safety and independence. The VA witness at the hearing has 
indicated an interest in making changes to pamphlet and housing 
benefits so catastrophically disabled veterans that need adaptive 
housing grants are provided them.

            Sincerely,

                                             Thomas Zampieri, Ph.D.
                                     Director, Government Relations

                               __________

    Below are some suggestions for either medical office building, 
clinic, or home adaptations for veterans who are either blind or have 
low vision problems. For those veterans with Traumatic Brain Injury 
adaptive lighting is often problem because of light sensitivity 
(photophobia) and they often require Rheostat lighting (adjusting light 
level switches) in your rooms that is needed since each individual may 
have different tolerance levels to lighting.
    There are also books that are available through ADA and National 
Highway and Traffic that give great suggestions and requirements for 
building codes.
    AER and American Printing House APB, also has books available that 
provide helpful hints.
    Building Configuration Suggestions for individuals who are Blind, 
Visually Impaired, and have Visual Processing Deficits
    This list is by no means all encompassing.
BLIND:
     1.  90 degree angles are easiest for orientation and to maneuver
     2.  Reduce wide open spaces for orientation and also because of 
the effect on ambient noises for orientation purposes
     3.  Use sound clues for orientation purposes (water feature, 
talking elevators) for office buildings
     4.  Use tactile changes when transitioning from one area to 
another to indicate a change. Tactile bumps at front areas and 
dangerous areas such as loading docks will indicate that a person 
should stop.
     5.  Use boundaries such as doors to indicate the separation of one 
area from another (such as on a unit). This also helps a person when 
traveling along a common area moving from one area to the next so that 
they do not veer into each
     6.  Work with traffic engineers in the area for tactile bumps at 
street crossing and accessible pedestrian signals. Sidewalks to areas 
of interest in the immediate area will improve independence and use of 
orientation and mobility skills to function in the community.
     7.  Check guide wires and signs in the area to ensure that they 
comply with regulations on height and projections
     8.  Signs have building requirements of the height and projection 
that is safe in a building so that blind individuals do not run into 
signs. Also do not mount televisions or other projections in areas 
where they would be at head height. In the case that these already 
exist, place a permanent piece of furniture (bolted preferably so that 
it cannot be moved) under the area so that an individual who is blind 
cannot miss the projection with the long cane and hit it with his/her 
head.
     9.  Provide security precautions for dangerous areas: stairs, 
loading docks that will indicate when a person may have wondered into a 
dangerous area (sounds, alarms, video monitoring)
    10.  Ensure that kitchen does not have a Flat Top stovetop
    11.  Ovens at both the higher and lower levels can provide 
educational experience for patients but also allow the therapist to 
work with a patient on a safe level for him/her if balance is an issue 
and/or a patient is working from a wheelchair and cannot safely reach 
to a higher level.
LOW VISION: Individuals with 20/100 or worse visual acuity
    1.  Provide high contrast. Black and white work best
    2.  Reduce glare with large open natural lighting areas. 
Individuals with traumatic cataracts will experience great difficulty 
in this area due to the light scattering effect of the cataract.
    3.  Do not have dark areas and bright areas contiguous with one 
another as the drastic light changes will impair a person's functional 
vision drastically.
    4.  Reduce visual clutter by using clean lines and reduce patterns.
    5.  Have furniture contrast with floors. Put dark blankets on the 
beds to make the furniture and bed in the patient's room stand out 
against the floor.
    6.  Provide variable lighting in the rooms and treatment areas to 
reduce eye discomfort from light sensitivity, photophobia
    7.  Have signs in high contrast and large print. Use a font that is 
very basic as a very ornate print will be difficulty to read.
    8.  Contrasting handrails and lines on the floor.
    9.  Have highly visible landmarks to indicate different areas of 
the hospital or clinic.
About Color
    Although many people who have low vision can also experience 
decreased color perception, it is still possible to use color to 
enhance independence, safety, and accessibility.

    Keep the following color principles in mind as you evaluate your 
home:

    <bullet>  Bright colors are generally the easiest to see because of 
their ability to reflect light.
    <bullet>  Solid, bright colors, such as red, orange, and yellow are 
usually more visible than pastels.
    <bullet>  Lighting can influence the perception of color: Dim light 
can ``wash out'' some colors, while bright light can intensify others.

    Also keep in mind that distinguishing colors within each of the 
following groups may be more difficult for some individuals who have 
low vision:

    <bullet>  Navy blue, brown, and black
    <bullet>  Blue, green, and purple
    <bullet>  Pink, yellow, and pale green

    Color can also provide important safety cues:

    <bullet>  An indicator of change in surface or level, such as ramps 
or stairs
    <bullet>  A warning for potential hazards, such as doors or 
cabinets that have been left ajar
    <bullet>  A means of color-coding household files, documents and 
bills.

    Here are some general color modifications for you to consider:

    <bullet>  When creating or coding household files, use Post-It 
notes in fluorescent colors, brightly colored stickers or paper clips, 
or brightly colored fluorescent markers.
    <bullet>  Mark cabinets and the edges of doors with brightly 
colored fluorescent tape to make them easier to detect when open.
    <bullet>  Mark a specific chair, table, desk, or work space with 
bright fluorescent paint or tape, a brightly colored chair cushion, or 
a bright red or orange ribbon to help you locate a particular location 
or activity independently.

    For more specific suggestions about using color when modifying your 
home, see Room by Room (http://www.visionaware.org/room_by_room).
About Contrast
    Contrast sensitivity refers to the ability to detect differences 
between light and dark areas; therefore, if you are an individual with 
low vision, increasing the contrast between an object and its 
background will generally make the object more visible.
    Enhancing contrast is one of the simplest, least expensive, and 
most effective home modifications you can implement.

    Keep the following contrast principles in mind as you evaluate your 
home:

    <bullet>  White or bright yellow objects or print against a black 
background usually provide the strongest color contrast.
    <bullet>  Use solid colors as backgrounds to make objects ``stand 
out.'' Avoid the use of patterns, prints, or stripes.
    <bullet>  Place light-colored objects against darker backgrounds. A 
white sheet of paper is more visible against a brown desktop or dark 
blotter.
    <bullet>  Place dark objects against lighter backgrounds. A dark 
chair will stand out better against white or cream-colored walls.

    Here are some general contrast modifications for you to


     consider:<bullet>  Paint doors, doorknobs, and door frames in 
bright colors to increase their visibility. Ensure that the color 
offers sufficient contrast with the door hardware, wall, or other 
background.
    <bullet>  Paint baseboards in a solid color that contrasts with 
walls and floor coverings.
    <bullet>  Use a contrasting placemat under your dinner plate to 
help you see the edge of the plate.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    <bullet>  Use solid non-patterned floor coverings (carpet, tile, or 
linoleum) that emphasize the boundary between the wall and the floor. 
Try to avoid using patterned carpets, especially on steps and stairs.
    <bullet>  Install outlet and switch plates that contrast with 
walls, floors, and baseboards. Illuminated light switches can provide 
good contrast in a darkened room.
    <bullet>  Place dark objects against lighter backgrounds, or vice 
versa. For example, a pale green chair could ``disappear'' against a 
yellow wall; instead, try covering the chair with a solid, brightly 
colored slipcover or towel to create contrast and make it ``stand 
out.''

    For more specific suggestions about using contrast when modifying 
your home, see Room by Room (http://www.visionaware.org/room_by_room).
Resources for Home Modification
    The following links and resources can help you when you begin to 
modify your home:

    <bullet>  Sources of Products for Independent Living (http://
www.visionaware.org/sources_of_ products_for_independent_living)
    <bullet>  Find Lighting Products (http://www.visionaware.org/
find_lighting_products)
    <bullet>  Find Labeling Products (http://www.visionaware.org/
find_labeling_products)
    <bullet>  Reading with Low Vision Optical Devices (http://
www.visionaware.org/reading-low-vision-optical-devices)
    <bullet>  All About Maximizing All of Your Senses (http://
www.visionaware.org/all_ about_maximizing_all_your_senses)
    <bullet>  What are the most common non-optical devices? (http://
www.visionaware.org/what_are_the_most_common_non_optical_devices)

Electrical Sockets and Light Switches
    Electrical sockets and light switches are often the same color as 
the surrounding walls; therefore, they can be difficult to locate if 
you have low vision.

    <bullet>  One solution is to install new face plates in a color 
that contrasts with the electrical outlets and/or light switches.
    <bullet>  Another solution is to mark your electrical outlets with 
raised or color-contrasting dots that can help you locate the outlet 
and align the prongs of the plug with the slits in the outlet.
    <bullet>  You can create your own raised dots by using spots of 
glue or bits of tape.
    <bullet>  Other types of raised marking materials, such as the Hi-
Mark Tactile Pen, Spot 'n Line Pens, Touch Dots, and Maxi-Marks are 
available from specialty catalogs.
    <bullet>  See Find Labeling Products (http://www.visionaware.org/
find_labeling_
products) and Labeling and Marking (http://www.visionaware.org/
labeling_
marking) for more information.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In addition, outlets are often located behind furniture and near 
the floor. One solution is to use a power strip or surge protector:

    <bullet>  Plug the power strip/surge protector into the outlet and 
place the power strip in an inconspicuous spot on an end table or other 
piece of furniture.
    <bullet>  You can also mark the outlets on the power strip with 
raised or color-contrasting dots to identify each plug.

    Traumatic Brain Injured TBI: Some studies find 72 percent of TBI 
patients complain of vision problems, 32 percent are diagnosed with 
varying levels of vision impairments ranging from mild to blindness.

    1.  Make sure signs and patterns and/or colors that indicate 
different areas of the hospital do not have any similarities that make 
it difficult to discriminate one area from another.
    2.  Make signs occur frequently for those with memory problems.
    3.  Make signs consistent throughout the center and do not change 
the angle, orientation because if an individual experiences difficulty 
with form constancy he/she will not realize that two signs are for the 
same area if they have a different appearance (size, orientation, 
color, etc.).
    4.  Reduce visual clutter because TBI patients experience 
difficulty with figure ground discrimination. Too much visual 
information can be over stimulating as well.
    5.  Provide maps with clearly marked ``you are here'' indicators.
    6.  Provide escorts for when individuals enter the building to be
    7.  Escorted to treatment areas and from one treatment area to the 
next.
    8.  Provide variable lighting in rooms and treatment areas. Have 
filters available to provide for patients who are photophobic and/or 
sensitive to light.
    9.  Have the nurses' station or secretary office at the front area 
to monitor patients coming onto the unit and/or leaving the unit.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                  November 20, 2009

Mr. Mark Bologna
Director of Loan Guaranty Service
Veteran Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Mr. Bologna:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Adaptive Housing Grants on November 19, 2009. Please answer 
the enclosed hearing questions by no later than Monday, December 21, 
2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely

                                          Stephanie Herseth Sandlin
                                                           Chairman
JL/ot

                               __________

                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                        Adaptive Housing Grants
                           November 19, 2009
    Question 1: Your written testimony provides that some veterans and 
servicemembers who have a service-connected condition do not qualify 
for these grants. Can you provide us with some examples of 
servicemembers and veterans who are being denied a grant and may 
benefit from such programs.

    Response: Title 38 U.S.C., Sec. 2101(a) and (b) specifies a finite 
list of qualifying disabilities for the Specially Adapted Housing (SAH) 
program. It also stipulates that the service-connected disability must 
be permanent and total. Consequently, in cases where certain medical 
conditions may be presumed to subside or improve, such as a temporary 
visual deficiency or traumatic brain injury, the individual would not 
be rated eligible for the grant. Additionally, where there is not a 
total loss of use of an extremity, the individual would not be rated 
eligible for the grant. Finally, as Members of Congress noted during 
the hearing, the statute prescribes a more stringent standard for 
blindness than the legal definition of blindness.

    Question 2: You state in your testimony that there are statutory 
inadequacies with the adaptive grants. Can you send us a complete list 
of all statutory inadequacies for review?

    Response: In VA's Report to Congress published on August 28, 2009, 
VA discussed statutory inadequacies that may prevent individuals from 
receiving much needed SAH assistance. The following summarizes 
inadequacies noted in that report:

    1.  Ownership: Unlike the Adaptive Housing (AH) grant, a Veteran 
who is eligible for a Paraplegic Housing (PH) grant and lives with a 
family member permanently may not receive a PH grant to modify the 
family member's home. For such an individual to obtain grant 
assistance, SAH agents must work with the individual's family to 
facilitate the transfer of an interest in the property to the eligible 
individual.
    2.  Aggregate Amount of Assistance: According to VA's 2007 Survey 
of SAH Grantees, most AH grant recipients indicated that the maximum 
dollar amount for the grant did not cover the full cost of adaptations. 
In many cases, these AH grant recipients may have incurred significant 
out-of-pocket expenses or relied on the generosity of others to adapt 
their homes.
    3.  Application of Cost-of-Construction Index: Need better context 
- VA notes that the Transitional Residence Adaptation (TRA) grant was 
not included in recently enacted legislation increasing other adaptive 
housing grants by an annual cost-of-construction index. Without the 
index, VA expects fewer individuals to use the TRA grant in the future.
    4.  Number of Grant Usages: Given the statutory restriction on the 
number of grant usages (3), maximum use of the AH or TRA grants would 
preclude potential use of a PH grant if a worsening disability would 
deem the Veteran eligible for a PH grant.
    5.  TRA: TRA grant funds are deducted from the aggregate amount of 
assistance available to a Veteran, and a TRA grant counts against the 
maximum number of grant usages. Thus, Veterans are less likely to use 
the TRA and wait and use the full benefit with AH or PH. It depends on 
their individual needs and situation.
    6.  Use of Funds for Administrative Expenses: Chapter 21 of Title 
38 does not authorize VA to use funds to pay for administrative 
expenses for alternative living situations. In some cases, it is 
necessary for an individual to make temporary alternative living 
accommodations while adaptations are being made to the home's only 
restroom (or the only restroom reasonably accessible to the 
individual). Temporary lodging may also be required if construction 
work results in the presence of dust or chemicals that aggravate 
certain medical conditions. Current law does not authorize VA to pay 
for temporary lodging during the adaptation.

    Question 3: What have been the main complaints regarding adaptive 
housing by veterans, servicemembers and their families?

    Response: The most frequent areas of concern voiced by Veterans and 
their families are outlined above in our responses to questions one and 
two.

    Question 4: Have there been any injuries that we have not taken 
into account for adaptive housing grants?

    Response: The response to question one above discusses some 
injuries not considered for adaptive housing grants.

    Question 5: Is there a different need between a married veteran and 
a single veteran who needs to use one of these adaptive housing grants?

    Response: Specific considerations are taken into account with each 
eligible Veteran's family status. The SAH agent must consider an 
individual's adaptive needs as they relate to assistance in daily 
living activities provided by a spouse or other family member. For 
example, if a Veteran is responsible for preparing his/her own meals, 
adaptation of the kitchen to meet his/her needs is a priority. In 
contrast, if a Veteran's spouse is responsible for cooking in the 
household, emphasis is placed on modifying other areas of the home. 
These considerations are evaluated on a case by case basis.

    Question 6: If a veteran receives the grant under section 2101(b) 
for the amount of $12,000 due to loss of use or loss of one limb and 
later loses another limb or usage of a limb, the veteran will then meet 
eligibility of 2101(a). Will the veteran be able to receive the full 
$60,000 housing benefit or a subsequent amount minus the original 
awarded $12,000?

    Response: The combination of grants under Chapter 21 may not exceed 
the maximum grant amount outlined in 2101(a). In fiscal year 2010 
grants under sections 2101(a) and 2101(b) are now indexed. The maximum 
grant under 2101(a) is currently $63,780, and the maximum grant under 
2101(b) is $12,756. Therefore, if an individual receives a grant under 
section 2101(b) for the amount of $12,756 due to loss of vision or loss 
of both hands and later loses another limb or usage of a limb, thereby 
becoming eligible for a 2101(a) grant, the original grant for $12,756 
is deducted from the current maximum of $63,780, and the Veteran can 
receive $51,024.

    Question 7: Thank-you for the data regarding the number of grants 
provided in recent years. Do you have an analysis of who is receiving 
the grants in terms of age and types of disabilities?

    Response: Demographic data in terms of age and disabilities are not 
routinely analyzed for the SAH grant program. However, VA is compiling 
available data and will provide analysis upon completion. VA estimates 
the review will be completed by February 15, 2010.

    Question 8: The staff has been approached by several companies 
interested in developing housing projects for severely disabled 
veterans. What are the pros and cons of such a program?

    Response: VA has also received inquiries on such housing 
developments, most of which are for rental units in high-rise 
buildings. VA has identified the following significant challenges with 
such a program:

    <bullet>  An individual using the SAH grant must obtain title to 
the home, which is impossible in a rental situation.
    <bullet>  Demand may not exist for housing projects or communities 
specifically for persons with disabilities. In VA's experience, 
Veterans prefer to re-integrate into their communities rather than 
living in highly concentrated units devoted to housing disabled 
individuals.
    <bullet>  Investment in such projects may not be cost-beneficial.
    <bullet>  In an emergency or disaster situation, multi-level and 
high-rise housing structures pose serious barriers to the evacuation of 
disabled individuals.

    Question 9: In BVA's testimony they recommend that when a veteran 
is determined to have a permanent and total disability that they be 
provided information on SAH and auto grants as well as given 
Certificates of Eligibility for these benefits. Is this something VA is 
already doing? If not, what are your thoughts on Dr. Zampieri's 
proposal?

    Response: VBA's disability compensation rating process determines 
eligibility for SAH benefits. This determination is made even if the 
Veteran does not specifically apply for SAH benefits. When VBA 
determines a Veteran is eligible for SAH benefits, information about 
the program is included with the rating decision letter.
    In February 2010, Loan Guaranty Service will start receiving an 
electronic notice each time a Veteran is found eligible for SAH 
benefits through the disability compensation rating process. This will 
allow VA to be more proactive in reaching out to Veterans eligible for 
SAH benefits.
    Once a Veteran is found eligible for SAH benefits and indicates an 
interest in using the program, a SAH agent schedules an interview with 
the individual. During that interview, the agent explains the SAH 
program as well as other benefits including HISA grant and Veterans 
Mortgage Life Insurance.
    VA has reached out to Dr. Zampieri to schedule a meeting so we can 
learn more about his proposal and any other ideas that can be 
implemented to improve outreach.

    Question 10: In Section 2101 (a), how does the VA determine a 
disability rating for ``precludes locomotion?'' Does this definition 
also include fusion of a joint and does it also include spinal fusions 
where mobility is lost due to cervical, thoracic and lumbar fusions?

    Response: The term ``preclude locomotion'' is defined at 38 CFR 
3.809 [Specially Adapted Housing Under 38 U.S.C. 2101(A)] as, ``the 
necessity for regular and constant use of a wheelchair, braces, 
crutches or canes as a normal mode of locomotion although occasional 
locomotion by other methods may be possible.''
    Fused joints and fusion of the spinal column are not specifically 
mentioned in this definition, but such fusions may lead to precluded 
locomotion in certain cases. Some spinal fusions are performed as a 
therapeutic surgical technique designed to increase overall locomotion 
and mobility by reducing vertebral movement that causes pain. If the 
joint or spinal fusion is not therapeutic, is due to injury or disease, 
and causes loss of use of the lower extremities so as to require 
braces, crutches, canes, or a wheelchair for locomotion, then a Veteran 
with such fusion would be entitled to the Specially Adapted Housing 
benefit.

                                 <all>

</pre></body></html>
